APPENDICES
APPENDIX A: Opinion of the United States
Court of Appeals for the Ninth Circuit,
published at 969 F.3d 945 (9th Cir.
2020) ............................................................ App. 1
APPENDIX B: Order on Motion for Summary
Judgment regarding Statue of Limitations,
available at 2019 WL 398001 (C.D. Cal.
Jan. 15, 2019) (D.C. Dkt. 809) ................. App. 24
APPENDIX C: Final Judgment Pursuant to
Federal Rule of Civil Procedure 54(b)
(C.D. Cal. Feb. 4, 2019) (D.C. Dkt. 819) ... App. 74
APPENDIX D: Order of the United States
Court of Appeals for the Ninth Circuit
Denying Panel Rehearing and En Banc
Rehearing (9th Cir. Oct. 21, 2020)
(C.A. Dkt. 115) .......................................... App. 76
APPENDIX E: Statutory And Regulatory
Provisions Involved
42 U.S.C. § 9607 (CERCLA § 107)
(excerpt) ........................................ App. 77
42 U.S.C. § 9613 (CERCLA § 113)
(excerpt) ........................................ App. 78

App. 1
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ARCONIC, INC., FKA Alcoa, Inc.;
APPLIED MICRO CIRCUITS CORP.;
BASF CORPORATION; BAXTER
HEALTHCARE CORPORATION;
CAL-TAPE & LABEL CO.; CALIFORNIA
HYDROFORMING COMPANY, INC.;
CINTAS CORPORATION; COLUMBIA
SHOWCASE & CABINET COMPANY,
INC.; COUNTY OF LOS ANGELES;
CROSBY & OVERTON, INC.; DISNEY
ENTERPRISES, INC.; FHL GROUP;
FORENCO, INC.; GENERAL DYNAMICS
CORPORATION; HEXCEL CORPORATION;
HERCULES, INC.; HONEYWELL
INTERNATIONAL, INC.; INTERNATIONAL
PAPER COMPANY; LOS ANGELES
COUNTY METROPOLITAN
TRANSPORTATION AUTHORITY;
MATTEL, INC.; MASCO CORPORATION
OF INDIANA; MERCK SHARP &
DOHME CORPORATION; PILKINGTON
GROUP LIMITED; QUEST DIAGNOSTICS
CLINICAL LABORATORIES, INC.;
RAYTHEON COMPANY; SOCO WEST,
INC.; SPARTON TECHNOLOGY, INC.;
THE BOEING COMPANY; THE DOW
CHEMICAL COMPANY; REGENTS OF
THE UNIVERSITY OF CALIFORNIA;

No. 19-55181
D.C. No.
2:14-cv-06456GW-E
OPINION

App. 2
TRIMAS CORPORATION; UNIVAR USA,
INC.; SAFETY-KLEEN SYSTEMS, INC.,
Plaintiffs-Appellants,
v.
APC INVESTMENT CO.; ASSOCIATED
PLATING COMPANY; ASSOCIATED
PLATING COMPANY, INC.; GORDON
E. MCCANN; LYNNEA R. MCCANN;
DARRELL K. GOLNICK; CLARE S.
GOLNICK; BODYCOTE THERMAL
PROCESSING, INC.; POWERINE OIL
COMPANY; CLAUDETTE EARL; EARL
MFG. CO., INC.; FERRO CORP.;
FIREMAN’S FUND INSURANCE
COMPANY; FEDERAL INSURANCE
COMPANY; PALLEY SUPPLY COMPANY;
FOSS PLATING COMPANY, INC.;
KEKROPIA, INC.; PALMTREE
ACQUISITION CORPORATION;
PHIBRO-TECH, INC.; FIRST DICE
ROAD COMPANY, INC.; UNION
PACIFIC RAILROAD COMPANY;
HALLIBURTON AFFILIATES, LLC;
CHERYL A. GOLNICK,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
George H. Wu, District Judge, Presiding
Argued and Submitted March 3, 2020
Pasadena, California
Filed August 10, 2020

App. 3
Before: Consuelo M. Callahan and
Jacqueline H. Nguyen, Circuit Judges,
and Dana L. Christensen,* District Judge.
Opinion by Judge Callahan
COUNSEL
E. Joshua Rosenkranz (argued) and Elizabeth R.
Cruikshank, Orrick Herrington & Sutcliffe LLP, New
York, New York; Brian P. Goldman, Easha Anand, and
Karim J. Kentﬁeld, Orrick Herrington & Sutcliffe LLP,
San Francisco, California; Nancy Sher Cohen and
Ronald A. Valenzuela, Lathrop Gage LLP, Los Angeles,
California; for Plaintiffs-Appellants.
Thomas R. McCarthy (argued), Consovoy McCarthy
PLLC, Arlington, Virginia; David E. Cranston, Greenberg Glusker, Los Angeles, California; for DefendantAppellee Union Paciﬁc Railroad Company.
James B. Harris, Thompson & Knight LLP, Dallas,
Texas; for Defendant-Appellee Bodycote Thermal Processing, Inc.
Robert P. Doty (argued) and Cathy T. Moses, Cox Castle
& Nicholson LLP, San Francisco, California, for Defendant-Appellee Palmtree Acquisition Corporation.
No appearances by remaining Defendants-Appellees.
Matthew R. Oakes (argued) and Jennifer Scheller
Neumann, Attorneys; Eric Grant, Deputy Assistant
* The Honorable Dana L. Christensen, United States District Judge for the District of Montana, sitting by designation.

App. 4
Attorney General; Environment and Natural Resources Division, United States Department of Justice,
Washington, D.C.; Michael Massey, Attorney, United
States Environmental Protection Agency; for Amicus
Curiae United States.
Xavier Becerra, Attorney General; Sally Magnani, Senior Assistant Attorney General; Edward H. Ochoa, Supervising Deputy Attorney General; Olivia W. Karlin
and James Potter, Deputy Attorneys General; Ofﬁce of
the Attorney General, Los Angeles, California; for Amicus Curiae California Department of Toxic Substances
Control.
Timothy T. Coates and Marc J. Poster, Greines Martin
Stein & Richland LLP, Los Angeles, California, for
Amicus Curiae Former United States Department of
Justice Ofﬁcial Stephen D. Ramsey.
OPINION
CALLAHAN, Circuit Judge:
The Comprehensive Environmental Response,
Compensation, and Liability Act (CERCLA) requires
parties to pursue contribution for their cleanup costs
within three years of the “entry of a judicially approved
settlement with respect to such costs.” 42 U.S.C.
§ 9613(g)(3)(B). This appeal asks whether, to trigger
this limitations period, a settlement must impose costs
on the party seeking contribution—a question we answer in the afﬁrmative. Because the district court relied on a contrary reading of the statute in holding the

App. 5
plaintiffs’ claims time-barred, we reverse its grant of
summary judgment in the defendants’ favor.
I.
A.
The Omega Chemical Corporation recycled solvents and refrigerants at its facility in Whittier,
California, from 1976 to 1991. The company’s mishandling of these substances caused them to spill and
leak from drums, tanks, and pipes, severely contaminating nearby soil and groundwater. In 1999, the U.S.
Environmental Protection Agency (EPA) placed the
Omega facility on the National Priorities List, a list of
the most contaminated sites in the nation. 64 Fed. Reg.
2942, 2945 (Jan. 19, 1999). The agency then set about
developing a long-term remedial plan for cleaning up
the site, splitting the process into manageable phases,
or “operable units.” See 40 C.F.R. § 307.14 (deﬁning “operable unit” as “a discrete action that comprises an incremental step toward comprehensively addressing
site problems”). EPA ﬁrst turned toward cleaning up
the soil and groundwater contamination in the immediate vicinity of the Omega plant. It dubbed this Operable Unit 1 (OU-1).
EPA negotiated the cleanup of OU-1 with a group
of Omega’s customers, who formed the Omega Chemical Potentially Responsible Parties Organized Group
(OPOG). The discussions proved fruitful, with OPOG
agreeing to lead the remedial efforts with EPA oversight. To give a district court authority over that

App. 6
agreement and to trigger OPOG’s right to seek contribution, the United States simultaneously lodged a
complaint against OPOG with a proposed consent
decree resolving that complaint. The consent decree
required OPOG to contain and remediate the groundwater contamination around the Omega plant. It also
required OPOG to reimburse the United States for its
cleanup costs. The court entered the consent decree a
few months later, in early 2001, thereby resolving
OPOG’s liability as to OU-1.
Under the applicable statute of limitations, 42
U.S.C. § 9613(g)(3)(B), the entry of the consent decree
gave OPOG three years to seek contribution for its OU1 costs. So in 2004 OPOG sued various other entities
that had sent hazardous waste to the Omega plant. By
and large, these defendants had contributed relatively
small amounts of waste. They were, in EPA parlance,
“de minimis” parties. See 42 U.S.C. § 9622(g) (characterizing de minimis parties by the quantity and toxicity of their waste). OPOG’s complaint alleged that it
had incurred $6.5 million in cleaning up the site, and
it asserted that the de minimis parties were liable for
their share of OPOG’s past and future cleanup costs.
The de minimis parties agreed to settle OPOG’s
claims for $1.7 million. In exchange, OPOG assumed
their “responsibilities” for the site, including their
cleanup costs. This assumption was not limited to costs
associated with OU-1; it included any Omega-site
claims that the United States or another party might,
in the future, assert against the de minimis parties. In
essence, the settlement allowed these parties to walk

App. 7
away from the site effectively immune from further
pursuit. The court approved that settlement in 2007.
EPA was meanwhile investigating Operable Unit
2 (OU-2). The agency had learned that chemicals from
the Omega plant had migrated through groundwater
and comingled with hazardous waste released from
other facilities, forming a toxic plume extending over
four miles downgradient of OU-1. In 2011, once EPA
better understood the extent of the OU-2 plume, it selected a remedy: an extensive “pump-and-treat” system that would draw contaminated water from the
ground and strip it of chemicals.
As it had with OU-1, OPOG agreed to spearhead
the cleanup efforts for OU-2. The parties formalized
their arrangement in 2016, with the United States
again lodging a complaint and corresponding consent
decree the same day.1 This time, though, the litigation
concerned the downgradient plume. The consent decree committed OPOG to finance and implement the
OU-2 pump-and-treat system. It further obligated
OPOG to post a $70 million performance guarantee
and reimburse the United States for its past and future OU-2 costs. The court approved the consent decree
in 2017, thereby resolving OPOG’ s liability as to that
portion of the site.

1

In 2010, the United States also sued and settled with
OPOG for work concerning OU-1 soil contamination.

App. 8
B.
Several years earlier, in 2014, having already undertaken some OU-2 work, OPOG brought this suit
seeking to recover the costs of that work from APC Investment Company and other entities (collectively, the
APC defendants) who purportedly had contributed to
the plume but not its cleanup. Once OPOG entered into
the OU-2 consent decree, it amended its complaint to
drop the cost-recovery claim and assert one for contribution in its stead. OPOG also sought a declaration
as to the APC defendants’ liability “for their respective equitable shares” of the obligations OPOG had incurred under the OU-2 consent decree.
Some of the APC defendants moved for summary
judgment, arguing that OPOG’s 2007 settlement with
the de minimis parties triggered CERCLA’s three-year
statute of limitations for contribution claims. The district court agreed, holding that the 2007 settlement
was “with respect to” the same costs sought in this
litigation and that, as a result, OPOG’s claims were
time-barred. Observing that the settlement resolved
OPOG’s and the de minimis parties’ site-wide claims
against each other, the court reasoned that OU-2 necessarily fell within the scope of their agreement. The
court also noted that OPOG was likely estopped from
arguing that it could not previously seek contribution
for OU-2 costs, since it asserted just such a claim in its
2004 complaint against the de minimis parties. The
court entered judgment, and OPOG timely appealed.
We have jurisdiction under 28 U.S.C. § 1291 and reverse.

App. 9
II.
We review de novo the grant of summary judgment and interpretation of CERCLA. Asarco LLC v.
Celanese Chem. Co., 792 F.3d 1203, 1208 (9th Cir.
2015). We also interpret CERCLA settlements de novo
but defer to the district court’s factual ﬁndings unless
they are clearly erroneous. Id. And ﬁnally, we review a
district court’s application of the doctrine of judicial estoppel for an abuse of discretion. MK Hillside Partners
v. Comm’r of Internal Rev., 826 F.3d 1200, 1203 (9th
Cir. 2016).
III.
A.
Congress enacted CERCLA to “promote the timely
cleanup of hazardous waste sites and to ensure that
the costs of such cleanup efforts [are] borne by those
responsible for the contamination.” Burlington N. &
Santa Fe Ry. Co. v. United States, 556 U.S. 599, 602
(2009) (internal quotation marks and citation omitted);
accord S. Rep. No. 96-848, at 13 (1980). To that end, the
statute provides two mechanisms for private parties to
recoup their cleanup costs: cost-recovery actions under
§ 107(a), 42 U.S.C. § 9607(a), and contribution actions
under § 113(f), id. § 9613(f). These related but distinct provisions “complement each other by providing
causes of action to persons in different procedural circumstances.” United States v. Ad. Research Corp., 551
U.S. 128, 139 (2007) (internal quotation marks and citation omitted).

App. 10
Section 107(a) enables parties to recover their directly incurred “response”—i. e., cleanup—costs from
those liable for the contamination. 42 U.S.C. § 9607(a);
see Key Tronic Corp. v. United States, 511 U.S. 809, 819
n.13 (1994) (explaining that CERCLA “encourage[s]
private parties to assume the ﬁnancial responsibility
of cleanup by allowing them to seek recovery from others” (internal quotation marks and citation omitted)).
The provision imposes strict liability, and a successful
§ 107(a) claim generally results in the defendant being
held jointly and severally liable for all cleanup costs
sought in the suit, even those attributable, at least in
part, to others. Arizona v. City of Tucson, 761 F.3d 1005,
1011 (9th Cir. 2014). Consequently, a cost-recovery defendant often faces a disproportionate share of liability
for a site’s contamination.
That is where § 113(f ) comes in. It provides parties with a right of contribution “to recover expenses
paid under a settlement agreement or judgment.”
Whittaker Corp. v. United States, 825 F.3d 1002, 1009
(9th Cir. 2016). Parties subjected to suit under § 107(a)
or § 106—which empowers the United States to order
certain cleanups—can ﬁle for contribution, 42 U.S.C.
§ 9613(f )(1), as can parties that settle their liability
with the United States or a state, id. § 9613(f )(3)(B).
Hence, a claim for contribution, unlike one for cost recovery, turns on a party ﬁrst facing or incurring liability to a third party. Atl. Research, 551 U.S. at 139-40. If
that liability exceeds the particular polluter’s portion
of responsibility for a cleanup, § 113(f ) serves to force
others to shoulder their share of the burden. Id. at 139.

App. 11
CERCLA imposes a three-year statute of limitations on § 113(f)(1) contribution claims. 42 U.S.C.
§ 9613(g)(3). The clock starts to run not when the
claims accrue, but upon the occurrence of certain statutory triggering events. As relevant here, the statute
bars parties from ﬁling for contribution “for any response costs . . . more than three years after . . . [the]
entry of a judicially approved settlement with respect
to such costs.” Id. § 9613(g)(3)(B). We must decide
whether the 2007 settlement, which imposed no liability on OPOG but transferred to it the de minimis parties’ responsibilities for the Omega site, triggered this
provision.
B.
Starting, as we must, with the statute’s text,
Lamie v. U.S. Trustee, 540 U.S. 526, 534 (2004), we ﬁnd
the limitations provision’s applicability to claims for
“contribution” largely dispositive. Because “[n]othing
in § 113(f ) suggests that Congress used . . . ‘contribution’ in anything other than [its] traditional sense,” the
term refers to the “tortfeasor’s right to collect from others responsible for the same tort after the tortfeasor
has paid more than his or her proportionate share.” Atl.
Richﬁeld, 551 U.S. at 138 (quoting Black’s Law Dictionary (8th ed. 2004)); accord Whittaker, 825 F.3d at 1008.
A CERCLA contribution claim, in other words, is by
deﬁnition predicated upon “an inequitable distribution

App. 12
of common liability among liable parties.”2 Atl. Richﬁeld, 551 U.S. at 139.
Bearing that in mind, interpreting the limitations
provision is fairly straightforward. It provides that a
party must pursue contribution following the entry of
a “settlement with respect to such costs.” The term
“such costs” plainly refers to the response costs sought
in the contribution action. And since a party can obtain
contribution only for costs incurred in excess of its own
liability, an action under § 113(f )(1) is necessarily for
another’s share of the costs faced or imposed under
§ 106 or § 107(a). See Am. Cyanamid Co. v. Capuano,
381 F.3d 6, 13 (1st Cir. 2004) (“ ‘[S]uch costs’ . . . refers
to the judgment mentioned earlier in the sentence and
identifies a particular claim or payment.”). A settlement,
then, starts the limitations period on a § 113(f)(1)

2

The Restatement elaborates:
A person seeking contribution must extinguish the
liability of the person against whom contribution is
sought for that portion of liability, either by settlement
with the plaintiff or by satisfaction of judgment. As permitted by procedural rules, a person seeking contribution may assert a claim for contribution and obtain
a contingent judgment in an action in which the person seeking contribution is sued by the plaintiff, even
though the liability of the person against whom contribution is sought has not yet been extinguished.
Restatement (Third) of Torts § 33 cmt. b (citations omitted); see
also Friedland v. TIC-The Indus. Co., 566 F.3d 1203, 1206 (10th
Cir. 2009) (deﬁning a CERCLA contribution claim as “a claim by
and between jointly and severally liable parties for an appropriate division of the payment one of them has been compelled to
make” (internal quotation marks and citation omitted)).

App. 13
claim for response costs only if it imposed those costs
and serves as the basis for seeking contribution.
It is therefore inaccurate to characterize the 2007
settlement as covering the costs at issue here merely
because it foresaw the remediation of the OU-2
groundwater plume. OPOG’s claims do not concern
OU-2 in the abstract. Rather, OPOG seeks the APC defendants’ share of the liability it assumed in the 2017
OU-2 consent decree. The 2007 settlement did not address those costs. It resolved neither who would pay for
OU-2’s remediation nor what that effort would entail.
Nor did it impose on OPOG any response costs or remedial obligations. That OPOG agreed to forego further contribution from the de minimis parties and, in
effect, to indemnify them for future cleanup work bears
no relation to the APC defendants’ responsibility for
the site. The 2007 settlement, after all, did not extinguish OPOG’s and the APC defendants’ common liability to the United States for OU-2. Accordingly, that
agreement did not start the limitations period.
C.
The APC defendants disagree, of course. They
point out that “with respect to” is broad qualifying language, and that the limitations provision mentions
costs alone—not obligations, liabilities, or responsibilities. They advise against reading into the statute any
such requirement, especially since Congress expressly
required a resolution of liability in § 113(f)(3)(B),
which authorizes contribution claims upon settling

App. 14
with the government. Thus, in the APC defendants’
view, any settlement starts the clock so long as it relates in some way to the general category of costs at
issue in the contribution action.
But we construe statutory language in context,
Celanese, 792 F.3d at 1210, and we limit otherwise capacious terms when that context “tug[s] . . . in favor of
a narrower reading,” Mellouli v. Lynch, 135 S. Ct. 1980,
1990 (2015) (some alterations omitted) (quoting Yates
v. United States, 574 U.S. 528, 539 (2015)). Here, we see
no reason why a settlement cashing out minor polluters from future involvement with a site would trip the
limitations period for contribution claims against different polluters. Section 113(f ) instead conﬁrms that
the clock starts ticking only upon the entry of a judgment or settlement resolving an underlying § 106 or
§ 107(a) claim and imposing liability on a polluter, who
then has three years to seek contribution for those imposed costs.
To begin with, the APC defendants’ position contravenes not only the central tenet of common-law
contribution, but also the “standard rule” that a limitations period does not run—let alone expire—before a
party can assert the associated claim. Green v. Brennan, 136 S. Ct. 1769, 1776 (2016); see also Asarco LLC
v. Atl. Richﬁeld Co., 866 F.3d 1108, 1124 n.8 (9th Cir.
2017) (construing CERCLA to avoid this very inconsistency). A party’s right to seek contribution extends
only to the costs for which it is potentially or actually
liable, as bounded by the operative complaint, settlement, or judgment. See Whittaker, 825 F.3d at 1012. So

App. 15
if a party is never sued and never deemed liable for a
particular subset of a site’s cleanup costs, then those
costs are not recoverable under § 113(f )(1). Under the
APC defendants’ broad construction of “settlement”
and “costs,” however, the limitations period could expire prior to the ﬁling of a § 106 or § 107(a) claim.
This case illustrates the point. The United States’
2000 complaint sought from OPOG the “reimbursement of certain costs” and the “performance of certain
response actions” needed to clean up a “portion” of the
Omega site. It did not address site-wide liabilities. And
even if it had, the consent decree ﬁled alongside the
2000 complaint dispels any doubt as to the scope of
OPOG’s then-existing contribution rights. See id. (basing a party’s § 113(f )(1) rights on the liability imposed
in the resolved § 107(a) action rather than faced in the
complaint underlying that action). That agreement
dealt only with OU-1. It resolved the pending suit but
left open the prospect of the United States later pursuing OPOG for liability arising from other parts of
the site. Once the court entered the OU-1 consent decree, OPOG had three years to seek reimbursement
under § 113(f) for the costs therein incurred. But it
had no right to contribution outside of that.3 See id.
3

The APC defendants argue that the 2001 consent decree
did not limit OPOG’s contribution rights because § 113(f)(1) allows a party to seek contribution “during or following” the underlying § 106 or § 107(a) action. We rejected a nearly identical
argument in Whittaker, explaining that although “the statute permits a party to initiate a contribution action while a § 107 . . . suit
is pending, actual recovery under § 113(f)(1) is limited to the expenses for which the party is found liable.” 825 F.3d at 1012. This

App. 16
at 1008-09; Celanese, 792 F.3d at 1209 (“[Section
113(f )(1)] remains open while the [§ 106 or § 107(a)]
lawsuit is unresolved.”). Not until 2016, when the
United States sued OPOG for the downgradient plume,
could it pursue contribution for its OU-2 costs. Yet the
APC defendants’ reading of the statute would mean
that the limitations period on that claim expired six
years earlier, in 2010, which strikes us as nonsensical.4
The APC defendants’ focus on the 2007 settlement
also ignores CERCLA’s symmetrical scheme for pursuing contribution claims. With § 113(f )(1), Congress
paired the events opening the door to contribution with
the events closing it. See Cooper Indus., Inc. v. Aviall
Servs., Inc., 543 U.S. 157, 167 (2004) (noting § 113(g)(3)’s
“corresponding” limitations periods). A contribution
claim accrues when a party is sued under § 106 or
§ 107(a), and then “the statute of limitations begins to
run once that litigation settles or ends by judgment.”
comports with “how contribution claims traditionally work.” Id.
(citing Restatement (Third) of Torts § 23(b) & cmt. b). So here,
following resolution of the United States’ 2000 suit, OPOG could
have sought contribution only for “the costs for which [it] was held
liable” in that suit. Id. Other costs were recoverable by way of
§ 107(a). See id. at 1009; Agere Sys., Inc. v. Advanced Envtl. Tech.
Corp., 602 F.3d 204, 225-26 (3d Cir. 2010) (holding that the parties could pursue incurred costs under § 107(a) but not § 113(f )
“because those parties were never themselves sued for those
amounts”).
4
For similar reasons, the 2010 litigation concerning soil contamination, see supra n.1, likewise failed to give rise to a contribution claim for OU-2 costs. That is especially true given that
the United States ﬁled that suit after the limitations period on
OPOG’s pending claims purportedly expired.

App. 17
Celanese, 792 F.3d at 1209 (emphasis added); see also
id. at 1210 (reiterating the same idea). This framework
clearly contemplates that the underlying § 106 or
§ 107(a) suit will lead to the defendant’s liability: being
sued anticipates that liability, and the resulting settlement or judgment establishes it. The statute of limitations sensibly starts then, once the defendant knows
the scope of its obligations. But the 2007 settlement
arose well before that point. It resolved no suit against
OPOG and stemmed instead from OPOG’s own claims
against the de minimis parties. Having the limitations
period run from such agreements would make a mess
of both § 113(f ) and the traditional workings of contribution. The better reading is that the provision’s reference to settlements means the agreement imposing the
costs in question.5

5

We note in this respect that, in addition to judgments and
settlements, two other events trigger CERCLA’s statute of limitations for contribution claims: administrative—i.e., EPA—settlements with de minimis parties, and administrative settlements
for cost recovery. 42 U.S.C. § 9613(g)(3). Each imposes liability on
the party pursuing contribution, so we construe “judicially approved settlements” similarly—as referring to agreements requiring a party to clean up a site under § 106 or pay response costs
under § 107(a). See Beecham v. United States, 511 U.S. 368, 371
(1994) (“[S]everal items in a list shar[ing] an attribute counsels in
favor of interpreting the other items as possessing that attribute
as well.”).
The legislative history is in accord. The House report explains
that Congress added § 113(f) to conﬁrm “the right of a person held
jointly and severally liable under CERCLA to seek contribution
from other potentially liable parties, when the person believes
that it has assumed a share of the cleanup or cost that may be
greater than its equitable share.” H.R. Rep. No. 99-253(I), at 79

App. 18
Indeed, our case law supports, if not compels, this
conclusion. Celanese, for example, also involved two
settlements concerning the cleanup of a contaminated
site. There we looked to which settlement underlay the
plaintiff ’s § 113(f ) contribution claim. 792 F.3d at
1210. We held the claim time-barred because it was
for “exactly the same liability” assumed in the much
earlier agreement. Id. at 1214. Critically, that initial
agreement comprehensively “define[d] who [would] pay
for the work and the nature of the work to remediate”
the site. Id. at 1213 (likening the earlier agreement to
“a proportionate liability declaratory judgment”). The
later settlement may have ﬁxed those costs, we explained, but it imposed no new ones. Id. at 1214. We
further noted that nothing prevented “a party in an
early settlement from seeking contribution related to
a later settlement, as long as those settlements cover
separate obligations.” Id. at 1215 (emphasis added).
In contrast to the underlying settlement in Celanese, the 2007 settlement neither imposed any costs on
OPOG nor obligated it to clean up OU-2. True, the 2007
settlement transferred to OPOG the de minimis parties’ “responsibilities” for the site, including any of
their prospective future costs for the groundwater
plume.6 But that is of no moment, as the settlement did
(1985) (emphasis added). The report adds, in this vein, that
“[p]arties who settle for all or part of a cleanup or its costs, or who
pay judgments as a result of litigation, can attempt to recover
some portion of their expenses and obligations in contribution litigation.” Id. at 80; accord S. Rep. No. 99-11, at 43 (1985).
6
In 2007, EPA was years away from selecting a remedy for
the plume, and no party was yet liable for its remediation. To

App. 19
not create any liability on OPOG’s part. What is more,
OPOG’s release of the de minimis parties had no impact on the APC defendants’ share of responsibility for
the plume, which remained outstanding.
While the 2007 settlement fell short of triggering
the limitations period, the 2017 consent decree ﬁts the
bill. It resolved the United States’ § 106 and § 107(a)
claims against OPOG for OU-2. In doing so, it established OPOG’s response obligations for that portion of
the site and burdened OPOG with the APC defendants’
share of liability to the United States. It, therefore, is
the settlement that is “with respect to” the costs OPOG
now seeks. And because OPOG ﬁled this suit within
three years of the entry of that consent decree, its
claims are timely.
D.
Mooring the limitations provision to the settlement giving rise to the contribution costs also serves
CERCLA’s remedial objectives. As this case amply
demonstrates, the cleanup of contaminated sites can
span many years and involve scores of litigants. Settling with de minimis parties plays an important role
in streamlining this process. Cashing out minor contributors can supply a needed influx of funds for
cleanup work, and releasing them from future liability

date, OPOG is the only entity to have pursued any CERCLA claim
against the de minimis parties with respect to the Omega site.

App. 20
can reduce the number of parties involved, simplifying
litigation and reducing transaction costs.
The APC defendants’ reading of the limitations
provision as including settlements untethered to resolved or pending § 106 or § 107(a) claims would throw
a wrench into this process. It would dissuade major
polluters from providing a complete release to any
party, however minor that party’s role in contributing
to a site’s contamination. That is because any such release would require major polluters to then ﬁle all possible contribution claims concerning the site, even
when the bounds of site-wide liability remain undeﬁned. The parties to such a suit would, in turn, have to
ﬁght over their respective equitable shares of response
costs that the United States or another party may
never pursue. Here, OPOG would have had to sue for
contribution for OU-2 despite EPA having yet to select
a remedy for the plume. While § 113(f )(1) was intended
to “bring[ ] all . . . responsible parties to the bargaining
table at an early date,” Whittaker, 825 F.3d at 1013
(Owens, J., concurring) (quoting H.R. Rep. No. 99253(I), at 80 (1985)), it does not operate to prohibit the
phased and orderly resolution of response obligations
for complex sites.
The APC defendants protest that, to avoid tripping
the limitations provision, major polluters can always
cabin their releases to particular parts of a site, similar
to how the United States proceeded in iterative stages
with OPOG. Yet this approach would undo much of the
beneﬁt derived from de minimis settlements in the
ﬁrst place. As EPA guidance explains, the legal fees

App. 21
and other transaction costs of negotiating with de minimis parties often dwarf their ultimate share of sitewide liability. 52 Fed. Reg. 24,333, 24,334 (June 30,
1987). The early dismissal of these parties thus serves
the interests of all involved. Repeatedly dragging them
to the table, on the other hand, would bog down negotiations, increase costs, and discourage settlement,
given the lack of finality and certainty otherwise afforded by a complete release. See United States v.
Cannons Eng’g Corp., 899 F.2d 79, 89 (1st Cir. 1990)
(discussing some of the beneﬁts associated with de
minimis settlements). Such an outcome neither hastens cleanups nor ensures that responsible parties
bear the costs.
IV.
Finally, we conclude that OPOG is not judicially
estopped from seeking contribution for its OU-2 costs.
“Judicial estoppel is an equitable doctrine that precludes a party from gaining an advantage by asserting
one position, and then later seeking an advantage by
taking a clearly inconsistent position.” Hamilton v.
State Farm Fire & Cas. Co., 270 F.3d 778, 782 (9th Cir.
2001) (ﬁrst citing Rissetto v. Plumbers & Steamﬁtters
Local 343, 94 F.3d 597, 600-01 (9th Cir. 1996); then citing Russell v. Rolfs, 893 F.2d 1033, 1037 (9th Cir.
1990)). According to the APC defendants, OPOG successfully pursued contribution for OU-2 costs in its
2004 suit against the de minimis parties, so it cannot
now contend that such a claim arose only recently,
upon entry of the OU-2 consent decree.

App. 22
This argument is largely beside the point. Even if
OPOG had obtained from the de minimis parties contribution for OU-2, the 2007 settlement did not start
the limitations period because it did not impose on
OPOG the APC defendants’ share of liability for the
downgradient plume. Furthermore, we discern no clear
inconsistency in OPOG’s position. The 2004 litigation
necessarily involved a § 113(f ) claim for the costs
OPOG had assumed under the 2001 OU-1 consent decree, and a § 107(a) claim for the other costs OPOG had
incurred but for which it had not, at that point, been
sued. Although OPOG’s complaint labeled the claims
as for “contribution,” it cited to § 107(a) in addition to
§ 113(f ). Moreover, OPOG’s 2006 motion for judicial
approval of the resulting settlement was clearer in this
regard. It explained that the claims were for contribution and cost recovery.7 See Neighbors of Cuddy Mountain v. Alexander, 303 F.3d 1059, 1064 n.2 (9th Cir.
2002) (looking to a claim’s substance rather than its
caption). OPOG’s current position is thus consistent
with its earlier one, and the district court erred in concluding otherwise.8
7

Prior to the Supreme Court holding in 2007 that potentially
responsible parties could proceed under § 107(a), Atl. Research,
551 U.S. at 141, this circuit took the view that any action between
such parties was “necessarily for contribution.” See Kotrous v.
Goss-Jewett of N. Cal., 523 F.3d 924, 932 (9th Cir. 2008) (overruling this position). It therefore makes sense that OPOG would
have so styled its claims.
8
Contrary to the APC defendants’ contention, OPOG did not
forfeit its right to rebut this argument at two hearings and in its
supplemental summary judgment briefs. We may review any
matter passed upon by the district court, Ahanchian v. Xenon

App. 23
V.
In sum, we hold that Congress incorporated into
CERCLA basic precepts of common-law contribution.
Chief among those precepts is that contribution turns
on a party having incurred an inequitable share of another’s liability. CERCLA’s limitations period, 42
U.S.C. § 9613(g)(3)(B), runs upon the entry of the settlement imposing that liability, but not before. The
statutory text supports this reading, as does its purpose. We therefore reverse the district court’s holding
that OPOG’s claims are untimely and remand the case
for further proceedings consistent with this opinion.
REVERSED AND REMANDED.

Pictures, Inc., 624 F.3d 1253, 1260 n.8 (9th Cir. 2010) (citing
Blackmon-Malloy v. U.S. Capitol Police Bd., 575 F.3d 699, 707
(D.C. Cir. 2009)), and, in any event, OPOG did discuss the issue.
At the ﬁrst hearing OPOG argued that estoppel was inextricably
tied to the characterization of the 2007 settlement. At the second
hearing the APC defendants broached estoppel only in asking for
a clear ruling on the matter. And as for the supplemental briefs,
estoppel was not among the matters the district court had ordered
addressed.

App. 24
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. CV 14-6456-GW(Ex)
Title

Date January 15, 2019

Arconic, Inc., et al. v. APC Investment Co., et al.

===========================================================================================
Present: The Honorable GEORGE H. WU, UNITED
STATES DISTRICT JUDGE
Javier Gonzalez
Deputy Clerk

None Present
Court Reporter /
Recorder

Tape No.

Attorneys Present for
Plaintiffs:

Attorneys Present for
Defendants:

None Present

None Present

PROCEEDINGS: IN CHAMBERS – RULING ON
MOTION FOR SUMMARY
JUDGMENT RE: STATUTE
OF LIMITATIONS [740]
Attached hereto is the ruling on Defendants’ pending
Motion for Summary Judgment based upon the Statute of Limitations as to the First and Third Causes
of Action in the Fifth Amended Complaint. The Court
sets a status/scheduling conference for January 28,

App. 25
2019 at 8:30 a.m. The parties are to ﬁle a Joint status
report by noon on January 24.
______ : ______
Initials of Preparer JG

Arconic, Inc., et al. v. APC Inv. Co.,
Case No. CV-14-6456-GW
Ruling1 on Motion for Summary Judgment Re:
Statute of Limitations

1

At the outset, the Court notes that this ruling is substantially similar in part and substantially different in part to the
tentative rulings issued in the July 12, 2018 Civil Minutes (“MSJ
Tentative I”), Docket No. 788 and in the August 3, 2018 Civil
Minutes (“MSJ Tentative II), Docket No. 792. The Court has made
the most signiﬁcant modiﬁcations to the procedural history portion in Section I.B, the analysis in Section IV, and the conclusion
in the now labeled Section V. The Court’s prior rulings were
merely tentative rulings, and this ruling replaces them and supersedes them in every way following reexamination of the original
and supplemental brieﬁng.

App. 26
I.

Background
A. Factual Background

In the operative pleading, Plaintiffs2 assert
claims against various Defendants,3 arising under the
2

“Plaintiffs” are: Alcoa, Inc.; Alpha Therapeutic Corp.; Applied Micro Circuits Corp.; Arlon, LLC; Astro Aluminum Treating
Co., Inc.; BASF Corp.; Baxter Healthcare Corp.; Cal-Tape & Label
Co.; California Hydroforming Company, Inc.; Cintas Corp.; Columbia Showcase & Cabinet Company, Inc.; County of Los Angeles;
Crosby & Overton, Inc.; Disney Enterprises, Inc.; FHL Group;
Forenco, Inc.; General Dynamics Corp.; Gulfstream Aerospace
Corp.; Hercules, Inc.; Hexcel Corp.; Honeywell International, Inc.;
Ingersoll-Rand Co.; International Paper Co.; Johns Manville; Kimberly-Clark Worldwide, Inc.; Kinder Morgan Liquids Terminals,
LLC; Los Angeles County Metropolitan Transportation Authority;
Masco Corp. of Indiana; Mattel, Inc.; Merck Sharp & Dohme Corp.;
NBC Universal Media, LLC; Pacific Bell Telephone Co.; Pilkington
Group Ltd; Quest Diagnostics Clinical Laboratories, Inc.; Raytheon
Co.; Rio Tinto AUM Co.; Safety-Kleen Systems, Inc.; Scripto-Tokai
Corp.; Sempra Global; Shiley, LLC; Signet Armorlite, Inc.; Soco
West, Inc.; Sonoco Products Co.; Sparton Technology, Inc.; Texaco
Inc.; Texas Instruments, Inc.; The Boeing Co.; The Dow Chemical
Co.; The Regents of the University of California; The SherwinWilliams Co.; Trane U.S., Inc.; TriMas Corp.; Union Oil Co. of
California; Univar USA, Inc.; Universal City Studios, LLC; and
Yort, Inc.
3
“Defendants” are: APC Investment Co.; Associated Plating
Co.; Associated Plating Co., Inc. (fka Associated Plating Acquisition
Corp.); Bodycote Thermal Processing, Inc.; Burke Street, LLC;
Powerine Oil Co.; Continental Heat Treating, Inc.; Continental Development Company, LP; Claudette Earl, an individual; Earl Mfg.
Co., Inc.; ExxonMobil Oil Corp.; Ferro Corp.; Firmenich, Inc.; Foss
Plating Co., Inc.; Gordon E. McCann, an individual; Lynnea R.
McCann, an individual; Darrell K. Golnick, an individual; Clare S.
Golnick, an individual; Cheryl A. Golnick, an individual; Kekropia,
Inc.; Mission Linen Supply; Momentive Specialty Chemicals, Inc.;
William K. Palley, an individual; Palley Supply Co.; Palmtree
Acquisition Corp.; Phibro-Tech, Inc.; Pilot Chemical Corp.; PMC

App. 27
Comprehensive Environmental Response, Compensation, and Liability Act (“CERCLA”), 42 U.S.C. §§ 9601
et seq., and the Resource Conservation and Recovery
Act (“RCRA”), 42 U.S.C. §§ 6901 et seq. See Fifth
Amended Complaint (“5AC”) ¶ 2, Docket No. 526.
The 5AC alleges4 the following: This action is one
of several arising from environmental contamination
at the Omega Chemical Superfund Site located in
Whittier and Santa Fe Springs, California, which the
Environmental Protection Agency (the “EPA”) has
designated as “Operable Unit No. 2” (“OU2” or the
“OU2 Site” or the “OU2 Facility”). See 5AC ¶ 2. The
groundwater contamination in OU2 is approximately
4.5 miles long. See id. Defendants owned properties,
operated businesses, or arranged for treatment of
waste at businesses sitting near or atop the OU2 Facility at which hazardous substances and waste (including hexavalent chromium and other solvents)
spilled or discharged onto the ground and made their
way into the soil and groundwater. See id. ¶ 3. As a result, the soil and groundwater have been contaminated; and there are multiple plumes of contamination
blending together into regional groundwater contamination. See id.
The EPA evaluated many Defendants in connection with the OU2 Facility and declared some of them
Specialties Group, Inc.; Union Pacific Railroad Co.; First Dice Road
Co.; and Halliburton Affiliates, LLC.
4
The Court provides a brief synopsis of the allegations in the
5AC to provide a contextual foundation for this motion.

App. 28
“potentially responsible parties” (“PRPs”), warranting
the receipt of a Special Notice Letter (“SNL”) from the
EPA. See id. ¶ 4. The EPA identiﬁed in the SNLs certain defendants (“SNL Defendants”) who were potentially liable under CERCLA Section 107 for the OU2
groundwater contamination and for past and future
costs to clean up that contamination. See id. The SNLs
also provided information supporting those conclusions and solicited offers from the SNL Defendants to
take remedial action and design remedial action as to
OU2. See id. The EPA issued General Notice Letters
(“GNLs”) to other PRP Defendants (“GNL Defendants”)
that were potentially liable for cleanup costs at the
Omega Superfund Site, inviting the GNL Defendants
to explain why they should not receive an SNL. See id.
¶ 5.
Plaintiffs in this action are companies that allegedly sent chemicals to Omega Chemical Corporation
(“Omega Chemical”) in Whittier for appropriate processing and recycling. See id. ¶ 7. The EPA asserts that
Omega Chemical’s failure to properly process, recycle,
and dispose of those chemicals resulted in the groundwater contamination and that Plaintiffs are responsible for remediation of the groundwater contamination
underneath the Omega Chemical property. See id. In
addition, the EPA has extended its view of Plaintiffs’
responsibility to include the groundwater contamination in OU2. See id. ¶ 8. The EPA contends that Plaintiffs are responsible for remediating OU2. See id. It
has determined that the contaminated groundwater
should be contained, extracted, and treated in order to

App. 29
be used in a beneﬁcial manner, which will cost tens of
millions of dollars in capital and operating expenditures. See id. ¶ 9.
Each Plaintiff has voluntarily incurred signiﬁcant
costs to investigate the sources of OU2 contamination
and the remediation of OU2. See id. In doing so, Plaintiffs have collectively spent millions of dollars to address these issues and may incur further future
expenses regarding response costs. See id. Defendants
are responsible for releases of hazardous substances
into the OU2 groundwater and therefore should bear
the costs to clean up that contamination. See id. Defendants have failed to implement source control
measures to prevent groundwater exceeding healthy
levels from leaving source properties as a result of contaminated on-site soils or groundwater. See id. ¶ 10.
This has led to unsafe groundwater continuing to migrate into OU2, swelling costs and the duration of
cleanup efforts. See id.
In this action, Plaintiffs seek recovery from Defendants of necessary response costs that Plaintiffs
have already incurred and will continue to incur due
to the release or threatened release of hazardous substances contaminating OU2 groundwater. See id. ¶ 11.
Plaintiffs also seek declaratory judgment that Defendants are liable for future response costs or damages
binding on any subsequent actions for recovery of response costs or damages. See id. Plaintiffs further endeavor to enjoin certain Defendants from continuing to
release hazardous substances emanating from source
properties that those Defendants own or operate and

App. 30
to force those Defendants to remediate soil and
groundwater contamination to control the spread of
hazardous substances in OU2. See id.
B. Procedural Background
At the outset, the Court notes that the statutory
grounds for the claims in this lawsuit have shifted over
time. In the original Complaint, Plaintiffs sought the
recovery of costs under CERCLA § 107. See Complaint
¶¶ 308-331, Docket No. 1. Though the Complaint mentioned CERCLA § 113 in the declaratory judgment
claim, the Complaint did not allege a contribution action under Section 113(f ). See id. ¶¶ 332-336. The ﬁrst
appearance of a contribution claim under CERCLA
§ 113(f ) seemed to arise in the June 13, 2016 ﬁling of
the Fourth Amended Complaint (“4AC”), Docket No.
489, wherein Plaintiffs pursued claims for both cost recovery under CERCLA § 107 and contribution under
CERCLA § 113(f ), among others. See 4AC ¶¶ 396-429.
By the 5AC’s ﬁling on November 1, 2016, the CERCLA
§ 107 cost recovery claims for relief were no longer included in the pleading; instead, the CERCLA § 113(f )
contribution claim was included along with an RCRA
§ 7002 cause of action and a claim for declaratory relief
as to liability under CERCLA § 113(f ) for contribution.
See 5AC ¶¶ 396-426.
On April 30, 2018, Moving Defendants5 ﬁled a motion for summary judgment to dismiss the ﬁrst and
5

“Moving Defendants” are: Associated Plating Company,
Associated Plating Company, Inc., Gordon E. McCann, Lynnea R.

App. 31
third causes of action on statute of limitations grounds;
they provided a notice of errata on May 1, 2018, attaching the motion for summary judgment and a Tab A attached to it with certain illustrative maps located
therein. See Moving Defendants’ Notice of Motion and
Motion for Summary Judgment Re: Statute of Limitations (“MSJ” or “Motion”), Docket No. 754-1; see id.
Tab A (“Maps”), Docket No. 754-2.6 Plaintiffs ﬁled an
opposition to the MSJ.7 See Plaintiffs’ Opposition to
McCann, Darrell K. Golnick, Clare S. Golnick, Cheryl A. Golnick,
Bodycote Thermal Processing, Claudette Earl, Earl Manufacturing Company, Inc., Halliburton Afﬁliates, Fireman’s Fund Insurance Company and Federal Insurance Company Interveners for
Palley Supply Company, Ferro Corporation, PMC Specialties
Group, Inc., Palmtree Acquisition Corporation, Phibro-Tech and
First Dice Road Company, Foss Plating Company, and Union Paciﬁc Railroad Company.
6
Moving Defendants move for summary judgment as to
Plaintiffs’ ﬁrst and third claims for relief, arguing that the threeyear statute of limitations in 42 U.S.C. § 9613(g)(3)(B) bars them.
See MSJ at 18-25. In the 5AC, Plaintiffs style the ﬁrst claim for
relief as “Contribution Under CERCLA,” alleged against all Defendants except for Burke Street LLC. See 5AC ¶¶ 396-407. The
third claim for relief is labeled as “Declaratory Judgment Under
Federal Law,” alleged against all Defendants except Burke Street
LLC. See id. ¶¶ 424-426.
7
As part of Plaintiffs’ Opposition, they ﬁled a request for judicial notice. See Plaintiffs’ Request for Judicial Notice in Support
of Opposition to MSJ (“Pls.’ RJN”), Docket No. 770-1. Moving Defendants do not appear to have objected to Plaintiffs’ RJN. See
Docket. The Court ﬁnds the exhibits attached to Plaintiffs’ RJN
to be appropriate for judicial notice as per Fed. R. Evid. 201. Moving Defendants also ﬁled a request for judicial notice of a complaint in a prior related action. See Moving Defendants’ Request
for Judicial Notice in Support of MSJ (“Defs.’ RJN”), Docket No.
785. Moving Defendants’ RJN is ﬁt for judicial notice as per Fed.
R. Evid. 201.

App. 32
Defendants’ Motion for Summary Judgment Re: Statute of Limitations (“Opp’n”), Docket No. 770. Moving
Defendants ﬁled a reply in support of the MSJ (“Reply,”
Docket No. 779) and a “Response to Statement of Uncontroverted Material Facts” (“DRSUF,” Docket No.
780.8
On July 12, 2018 the Court issued its tentative ruling as to the MSJ, indicating its inclination to deny the
motion. See July 12, 2018 Civil Minutes (“MSJ Tentative I”), Docket No. 788. During the hearing on that
motion, the Court asked for an itemization of “what the
[OU2 response costs] generally are and the source of
those amounts. . . . the expenditures that [Plaintiffs]
have and to the extent that [Plaintiffs] know what they
are now. . . .” See July 12, 2018 Hr. Tr. at 19:5-17. The
Court also granted the request for the submission of
supplemental brieﬁng from each side. See id. 21:22-24.
Plaintiffs ﬁled their supplemental brieﬁng. See Plaintiffs’ Supplemental Brief in Opposition to MSJ (“Pls.’
Supp. I”), Docket No. 789. They attach what they label
a Timeline of OU2 Activities and OPOG Costs (“Costs
Timeline”), Docket No. 789-1. Moving Defendants ﬁled
a supplemental reply brief. See Moving Defendants’
Reply to Plaintiffs’ Offer of Proof Re: Costs Barred by
the Statute of Limitations (“Defs.’ Supp. I”), Docket No.
790. The Court heard oral argument on the MSJ again
8

In support of the Reply, Moving Defendants ﬁled a request
for judicial notice. See Moving Defendants’ Request for Judicial
Notice in Support of Their Reply (“Defs.’ RJN”), Docket No. 785.
The Court ﬁnds the single exhibit, a complaint ﬁled in a different
proceeding, ﬁt for judicial notice.

App. 33
on August 6, 2018 and issued another tentative ruling
three days prior. See Aug. 3, 2018 Civil Minutes (“MSJ
Tentative II), Docket No. 792. On September 21, 2018
and September 28, 2018, the parties submitted additional brieﬁng. See generally Moving Defendants’ PostArgument Brief, Docket No. 802 (“Defs.’ Supp. II”);
Plaintiffs’ Response to Defendants’ Post-Argument
Brief Re: Statute of Limitations (“Pls.’ Supp. II”),
Docket No. 804.
C. Statutory Context
The Ninth Circuit provided a helpful statutory
overview of CERCLA in Asarco LLC v. Atl. Richﬁeld
Co., 866 F.3d 1108 (9th Cir. 2017), stating as follows:
Congress enacted CERCLA in 1980 with
two goals in mind: (i) to encourage the “ ‘expeditious and efﬁcient cleanup of hazardous
waste sites,’ ” and (ii) to ensure that those responsible for hazardous waste contamination
pay for the cleanup. Carson Harbor Vill., Ltd.
v. Unocal Corp., 270 F.3d 863, 880 (9th Cir.
2001) (en banc) (quoting Pritikin v. Dep’t of
Energy, 254 F.3d 791, 795 (9th Cir. 2001)); see
S. Rep. No. 96-848, at 13 (1980). Hazardous
waste sites – also known as Superfund sites –
contain toxic substances often deposited by
multiple entities. See 42 U.S.C. § 9607(a)(1)(4). In order to spread responsibility among
those entities, Congress included a provision
in CERCLA providing for reimbursement of
costs incurred by the government or a liable
PRP. Section 107(a) provides a cause of action

App. 34
for a “cost recovery” claim against PRPs for a
wide range of expenses, including “ ‘any . . .
necessary costs of response incurred’ ” that result from a release of a hazardous substance.
Whittaker Corp. v. United States, 825 F.3d
1002, 1006 (9th Cir. 2016) (quoting 42 U.S.C.
§ 9607(a)).
“Response” is a term of art under CERCLA and means “remove, removal, remedy,
and remedial action.” 42 U.S.C. § 9601(25).
Congress even gave those deﬁning terms their
own deﬁnitions. A “removal” means, inter alia,
“the cleanup or removal of released hazardous
substances from the environment” and any
actions that may be necessary “in the event of
the threat of release of hazardous substances
into the environment.” Id. § 9601(23). A “remedial action” means, inter alia, “actions consistent with permanent remedy taken instead
of or in addition to removal actions . . . to prevent or minimize the release of hazardous
substances so that they do not migrate to
cause substantial danger to present or future
public health or welfare or the environment.”
Id. § 9601(24). Put simply, a “response action”
covers a broad array of cleanup activities.
Section 107(a) is limited to recovery of response costs the suing PRP itself directly incurred. See Atl. Research, 551 U.S. at 139, 127
S.Ct. 2331 (“[Section] 107(a) permits recovery
of cleanup costs but does not create a right to
contribution.”). At the time of enactment,
CERCLA included no express right to contribution for a PRP that did not itself incur

App. 35
response costs, but that reimbursed another
party that did incur response costs. See
Cooper Indus., Inc. v. Aviall Servs., Inc., 543
U.S. 157, 162, 125 S.Ct. 577, 160 L.Ed.2d 548
(2004). Such a situation arises under two circumstances: (i) where the PRP is the defendant in a CERCLA § 106 or § 107(a) action and
a money judgment issues against it; or, as
with the CERCLA Decree in the matter before
us, (ii) where the PRP pays the United States’
or a State’s response costs pursuant to a settlement agreement. See id. at 160-61, 125
S.Ct. 577; Atl. Research, 551 U.S. at 138-39,
127 S.Ct. 2331; Whittaker, 825 F.3d at 100607.
Congress added an express right to contribution with the Superfund Amendments
and Reauthorization Act of 1986 (“1986 CERCLA Amendments”), Pub. L. No. 99-499, to
address these two circumstances. See Atl. Research, 551 U.S. at 132, 127 S.Ct. 2331. Section
113(f )(1) captures the ﬁrst, and provides that
“[a]ny person may seek contribution from
any other person who is liable or potentially
liable under [§ 107(a)] of this title, during
or following any civil action . . . under
[§ 106 or § 107(a)] of this title.” 42 U.S.C.
§ 9613(f )(1). . . . Section 113(f )(3)(B), which is
directly at issue [in Atl. Richﬁeld], captures
the second scenario, and provides that
[a] person who has resolved its liability to the United States or a State for
some or all of a response action or for
some or all of the costs of such action

App. 36
in an administrative or judicially approved settlement may seek contribution from any person who is not
party to a settlement [that immunizes such person from a contribution
action].
Id. § 9613(f )(3)(B). In other words, “a PRP
that pays money to satisfy a settlement agreement or a court judgment may pursue § 113(f )
contribution.” Atl. Research, 551 U.S. at 139,
127 S.Ct. 2331; see Cooper, 543 U.S. at 163,
167, 125 S.Ct. 577 (recognizing that
§ 113(f )(1) and § 113(f )(3)(B) set forth separate rights of contribution).
While § 107(a) cost recovery actions and
§ 113(f ) contribution actions offer “complementary yet distinct” remedies, there is overlap between them. Atl. Research, 551 U.S. at
138, 139 n.6, 127 S.Ct. 2331. For example, a
PRP may undertake its own response actions
pursuant to a settlement agreement with the
government. See id. That PRP will have incurred its own response costs, meaning it is
eligible for cost recovery under § 107(a), but it
has also settled with the government, giving
rise to a contribution action under
§ 113(f )(3)(B). The question is whether both
or only one of these avenues of relief is available. Our circuit, and “every federal court of
appeals to have considered the question since
Atlantic Research,” has concluded that “a
party who may bring a contribution action for
certain expenses must use the contribution
action [under § 113(f )(3)(B)], even if a cost

App. 37
recovery action [under § 107(a)] would otherwise be available.” Whittaker, 825 F.3d at 1007
(emphasis in original); see, e.g., Bernstein v.
Bankert, 733 F.3d 190, 206 (7th Cir. 2013)
(party may not pursue cost recovery claim
where a contribution claim is available); Solutia, Inc. v. McWane, Inc., 672 F.3d 1230, 123637 (11th Cir. 2012) (same); Morrison Enters.,
LLC v. Dravo Corp., 638 F.3d 594, 603-04 (8th
Cir. 2011) (same); Agere Sys., Inc. v. Advanced
Envtl. Tech. Corp., 602 F.3d 204, 229 (3d Cir.
2010) (same); Niagara Mohawk Power Corp. v.
Chevron U.S.A., Inc., 596 F.3d 112, 128 (2d Cir.
2010) (same); ITT Indus., Inc. v. BorgWarner,
Inc., 506 F.3d 452, 458 (6th Cir. 2007) (same).
Thus, a PRP that incurs its own response
costs pursuant to a settlement agreement
may only bring a claim for contribution.
Sections 107(a) and 113(f ) have different
statutes of limitations periods. An action for
“recovery of . . . costs” under § 107(a) “must be
commenced . . . within 6 years after initiation
of physical on-site construction of the remedial action” or “within 3 years after the completion of the removal action.” 42 U.S.C.
§ 9613(g)(2)(A), (B). An action for contribution
of “response costs or damages” under § 113(f ),
by contrast, “may be commenced” no more
than “3 years after . . . the date of . . . entry of
a judicially approved settlement with respect
to such costs or damages.” Id. § 9613(g)(3)(B).
The shorter three-year limitations period for
contribution actions is intended “to ensure
that the responsible parties get to the bargaining – and clean-up – table sooner rather

App. 38
than later.” RSR Corp. v. Commercial Metals
Co., 496 F.3d 552, 559 (6th Cir. 2007); see Whittaker, 825 F.3d at 1013 (Owens, J., concurring
in part) (observing that § 113(f ) was intended
to “ ‘bring[ ] all such responsible parties to the
bargaining table at an early date’ ” (quoting
H.R. Rep. (Energy and Commerce Committee)
No. 99-253, pt. 1, at 80 (1985), reprinted in
1986 U.S.C.C.A.N. 2835, 2862)).
See Atl. Richﬁeld, 866 F.3d at 1115-1117 (internal footnotes omitted).
CERCLA § 113(g)(3) provides:
No action for contribution for any response
costs or damages may be commenced more
than 3 years after –
(A) the date of judgment in any action
under this chapter for recovery of such
costs or damages, or
(B) the date of an administrative order
under section 9622(g) of this title (relating to de minimis settlements) or 9622(h)
of this title (relating to cost recovery settlements) or entry of a judicially approved
settlement with respect to such costs or
damages.
See 42 U.S.C. § 9613(g)(3).

App. 39
II.

Undisputed Facts9
A. The Site

This lawsuit pertains to a 4.5 mile plume of contaminated groundwater situated south/southwest of
the former Omega Chemical Corporation processing
plant in Whittier, referred to as OU2 of the Omega Superfund Site.10 DRSUF ¶ 1; 5AC ¶ 2. In 1995, the EPA
issued a Unilateral Administrative Order (“UAO”) requiring the UAO Respondents11 to “undertake and
9

Some of the underlying “undisputed” facts cited herein
have been disputed by Plaintiffs or Moving Defendants. The
Court has reviewed such disputes and has included in this summary only facts that are supported by the cited evidence, altering
the proffered facts if necessary to accurately reﬂect the uncontroverted evidence. To the extent that the cited underlying “undisputed” facts have been disputed, the Court ﬁnds that the stated
disputes: (1) fail to controvert the proffered “undisputed” facts, (2)
dispute the facts on grounds not germane to the below statements, and/or (3) fail to cite evidence in support of the disputing
party’s position. As such, the Court treats such facts as undisputed. Any proffered facts not included in this Tentative Ruling
were found to be: (1) improper opinions or conclusions rather than
facts, (2) were unsupported by admissible evidence, (3) were
deemed irrelevant to the Court’s present analysis, or (4) some
combination thereof.
10
Many of Moving Defendants’ uncontroverted facts and
supporting evidence are mere allegations in the 5AC. See generally Moving Defendants’ Statement of Uncontroverted Material
Facts and Conclusions of Law in Support of MSJ, Docket No. 742.
Generally, to the extent the statements merely regurgitate what
Plaintiffs allege, they will not be repeated here but are instead
located in the background section above.
11
The UAO Respondents were listed in Appendices A and B
of the UAO. See Doty Decl. Ex. 7 at 1, 21-32. Not all of the Plaintiffs in this case are listed as UAO Respondents (and vice versa)
in the UAO.

App. 40
complete removal activities to abate an imminent and
substantial endangerment to the public health, welfare, or the environment.” See Declaration of Robert P.
Doty in Support of Moving Defendants’ Motion for
Summary Judgment (“Doty Decl.”) Ex. 7 at 2, Docket
No. 744.12 The EPA addressed the UAO to Omega
Chemical, its owner, and over 100 Omega Property
Generators (“Generators”), which comprised of entities
that sent chemicals to the Omega Facility for recycling
or reclamation. See id. at 3-4; Declaration of Gene A.
Lucero in Support of Plaintiffs’ Opposition to MSJ
(“Lucero Decl.”) ¶ 6, Docket No. 770-18. A portion of
those public and private Generators formed the Omega
Chemical Potentially Responsible Parties Organized
Group (“OPOG”) to work together with government
regulators and Omega Chemical to evaluate the need
for and perform necessary response actions at the
Omega Facility. See Lucero Decl. ¶ 4. Plaintiffs in this
lawsuit are included among the members of OPOG. See
id. ¶ 5. The EPA identiﬁed Plaintiffs and certain Defendants in this action as jointly and severally liable
for the regional groundwater contamination at the

12

This page number refers to the pagination at the bottom
right of the exhibit. All other page numbers for exhibits refer to
that pagination unless noted otherwise. Rather than listing the
docket numbers for each exhibit, the Court will list the exhibits
and corresponding dockets here. As to the exhibits attached to the
Doty Declaration, Exhibits 1 through 5 are at Docket No. 745; Exhibits 6 through 6A are at Docket No. 746; Exhibits 7 through 13A
are at Docket No. 747; Exhibits 14-16 are at Docket No. 748; Exhibits 18-20 are at Docket No. 749; Exhibits 21-28 are at Docket
No. 750; Exhibits 29-32 are at Docket No. 751.

App. 41
Omega Superfund Site designated as OU2.13 See
DRSUF ¶ 2.
B. Response Costs
Plaintiffs have incurred signiﬁcant costs to investigate the sources and the remediation of the OU2 Facility. See DRSUF ¶ 8; 5AC ¶ 9. This has amounted to
millions of dollars. See id. Remedying the situation will
require tens of millions of dollars in capital and operating expenditures for years to come. See id. Possible
groundwater treatment technologies for the remediation, as described in a 2016 EPA fact sheet, include extraction wells, conveyance piping, and treatment
equipment.14 See Doty Decl. Ex. 5 at pg. 6 Fig. 3.
C. Relevant Settlements
1. The 2000 Action and the Related 2001
Consent Decree
In 2000, in United States v. Abex Aerospace Division,
Case No. 00-cv-12471-TJH-(JWJx) (“2000 Action”),
13

Exhibit 4 to the Doty Declaration does not state the quoted
language in DRSUF ¶ 2, but based on Plaintiffs’ response and
Moving Defendants’ reply, this statement seems to constitute the
overlapping undisputed statement of both parties.
14
Jack Keener, who has “knowledge and experience as Project Manager and Project Coordinator” provided information
about the amounts and descriptions of costs incurred by OPOG
relating to OU2 in each of the years between 2001 and 2018,
which has been incorporated into the Costs Timeline. See Declaration of Jack Keener in Support of Plaintiffs’ Opp’n, Docket No.
789-3.

App. 42
Plaintiff United States sued a number of defendants15
under CERCLA Sections 106 and 107, seeking: (1) reimbursement of costs incurred by the EPA and the Department of Justice for response actions at the Omega
Chemical Corporation Superfund Site in Whittier, California and (2) seeking performance of studies and
“Work” by the “Settling Work Defendants”16 at the
Omega Site consistent with the National Contingency
Plan (“NCP”). See Doty Decl. Ex. 13 at 4 (summarizing
the complaint in that action). The complaint in the
2000 Action alleged that the United States had incurred at least $554,189 in response costs for responding to the release or threatened release of hazardous
substances at the former hazardous waste treatment
and storage facility of Omega Chemical Corporation.
See Defs.’ RJN Ex. A ¶ 6, 11. On February 28, 2001,
Judge Terry J. Hatter (“Judge Hatter”) entered an order approving a consent decree (“2001 CD”) between
the United States and certain settling defendants. See
generally Doty Decl. Ex. 13. The 2001 CD provided that
“[t]he Settling Work Defendants will install three sentinel groundwater monitoring wells at two or three
15

Defendants in that case are delineated on the ﬁrst three
pages of the 2001 Consent Decree and on the ﬁrst three pages of
the complaint in that matter. See Doty Decl. Ex. 13 at 1-3; see also
Defs.’ RJN Ex. A at 1-3, Docket No. 785.
16
“Settling Work Defendants” is deﬁned in the 2001 Consent
Decree as “those parties identiﬁed in Appendix D, who are signatories to this Consent Decree, who are required to perform the
Work, whether they perform the Work by themselves or through
any legal entity that they may establish to perform the Work.”
See Doty. Decl. Ex. 13 at 8. Appendix D does not seem to appear
in the materials provided by either party. See Docket.

App. 43
locations downgradient of Phase 1a Area and upgradient of Water Supply Well 30R3.” See Doty Decl. Ex. 13
at 49 (Task 3). The other two tasks required under the
2001 CD were: (1) the design and implementation of
“a groundwater containment and mass removal treatment system in the Phase 1a Area” and (2) the implementation of a “Remedial Investigation/Feasibility
Study (“RI/FS”) at the Omega property for vadose zone
contamination that has resulted from the release of
hazardous substances on, at, or emanating from the
Omega property.” See id. at 44-49 (Tasks 1 and 2).
2. The 2004 Action and the Related 2007
Settlement
In 2004, in the case of Omega Chemical PRP
Group LLC v. Aeroscientiﬁc Corp., Case No. 04-cv-1340TJH-(JWJx) (“2004 Action”), Omega Chemical PRP
Group LLC sued over 200 defendants who were allegedly responsible for hazardous substances stored,
treated, or disposed of at the Omega Site. See Doty
Decl. Ex. 6 at 1. In February 2004, plaintiffs in that
action ﬁled a complaint alleging: (1) contribution under
CERCLA against non-federal defendants and (2) contribution under CERCLA against federal defendants.
See generally Doty Decl. Ex. 18 (“2004 Complaint”).
Those plaintiffs sought to recover response costs incurred in connection with the Omega Site pursuant to
CERCLA Sections 107 and 113.17 See id. Approval of
17

In more detail, the plaintiffs in the 2004 Complaint sought
the relief delineated at pages 28-29 of Doty Decl. Ex. 18 (page

App. 44
another settlement was entered on March 9, 2007
(“2007 Settlement”) but in relation to the 2004 Action.
See generally Doty Decl. Ex. 23. As part of an effort to
establish that this was a good faith settlement, two
declarations referenced an EPA $101.5 million cost estimate. See DRSUF ¶ 18; Doty Decl. Ex. 22 ¶ 10; see id.
Ex. 24 ¶ 6. This cost estimate derives from a 2004 EPA
memorandum (“2004 Cost Estimate Memo”) by Dr.
Tom Perina (“Dr. Perina” or “Perina”). See DRSUF ¶ 19;
see generally Doty Decl. Ex. 19. In the 2004 Cost Estimate Memo, Dr. Perina described the groundwater as
containing contamination dissolved within it over an
area of at least 2.5 miles long and .75 miles wide (the
“plume”). Id., Ex. 19 at 2. The 2004 Cost Estimate
Memo assumed extraction and treatment of contaminated groundwater as the presumptive remedies for
the site – characterized as “pump and treat” using a
complex treatment train to address chemicals in the
plume. See id. at 2-3. This estimate included wells, water conveyance pipelines, and a treatment plant as
components of the conceptual remediation system. See
id. at 3. The pump and treat system would operate for
30 years with soil remediation taking 3 years. See id.
Hexavalent chromium and PCE (tetrachloroethylene)
were therein identiﬁed as contaminants detected in
the Omega Site, with the 2004 Cost Estimate Memo
noting that other contaminants may be identiﬁed in
the future. See id. at 2-3. Dr. Perina estimated that soil
remediation costs with a 3.1% discount rate would add
numbers used for this citation are at the bottom right-hand side
of the exhibit).

App. 45
up to $3.9 million and groundwater pump and treat
costs would amount to $97.5 million. See id. at pg. 5
Table 1. In a 2005 EPA fact sheet and EPA memo, $6.4
million is the estimate for the cost of pumping and
treating OU-1’s groundwater. See DRSUF ¶ 26; Doty
Decl. Ex. 26 at 3. Eliminating that $6.4 million ﬁgure
from the $97.5 million ﬁgure amounts to $91.1 million
for pumping and treating.
The 2007 Settlement, in Section 2.03, deﬁnes
“Claims or Claims and Liabilities” as:
[A]ny and all claims (including without limitation all contribution claims in litigation or
arbitration), losses, demands, causes of action,
obligations, direct or consequential damages,
injuries, liens, costs (including without limitation reimbursement of government response
costs and legal costs), civil fines, penalties,
expenses, fees and liabilities of any nature
whatsoever (including without limitation attorneys’ fees), whether contractual, statutory,
equitable or under common law, whether
known or unknown, whether accrued or unaccrued, that are based on or arise from the Site.
See Doty Decl. Ex. 6A § 2.03. “Site” is deﬁned as “the
Omega Chemical Corporation Superfund Site listed on
the National Priorities List on January 19, 1999, 64
Fed. Reg. 2945.” See id. § 2.19.
The 2007 Settlement provides for a release of “Settled Matters.” See id. § 5.01. Section 5.02 sets out “Excluded Matters” from the 2007 Settlement, and for a
claim or liability arising from the Site to be excluded it

App. 46
must not be for Regional Response Work. See id.
§ 5.02(j). “Regional Response Work” is deﬁned under
the 2007 Settlement as “work that the Governments
require the Parties, or any one of them to perform, or
which they perform at the request or demand of the
Governments or any one of them, regarding regional
groundwater contamination alleged to be attributed to
the Site.” See id. § 2.16. In other words, Regional Response Work is not considered one of the Excluded
Matters. See id. Except for Excluded Matters and certain ministerial tasks, and pursuant to terms and conditions in the 2007 Settlement, OPOG and Omega
Chemical PRP Group LLC assumed “each Settling
Party’s responsibilities for the Site, including, but not
limited to, all the response costs associated with the
Site.” See id. 3.01(a).
Sections 5.03 and 6.01 of the 2007 Settlement preserve certain rights to additional recovery by the
Group18 against some of the settling defendants and
third parties. See id. §§ 5.03, 6.01. The Group could recover additional payments of the amount by which Total Collective Costs exceed $70 million, not to exceed
the settling party’s share of $93 million. See Doty Decl.
Ex. 6A § 5.03. “Total Collective Costs” are deﬁned in
the 2007 Settlement as “total Site response costs that
have been or are in the future expended by the Group
and the Settling Parties.” See id. § 2.21. Those costs include costs attributable to “PRPs the Group has or does
otherwise settle with . . . [and] PRPs from whom the
18

The 2007 Settlement deﬁnes “Group” as OPOG and the
Omega Chemical PRP Group LLC.

App. 47
Group recovers through litigation to judgment.” See id.
§ 2.21.
As part of the papers arguing to Judge Hatter that
the 2007 Settlement was a good faith settlement, the
memorandum in support thereof stated that the
2007 Settlement resolves the settling parties’ “claims
against each other with regard to their responsibilities
for the Omega Site, including claims for response costs
under the completed UAO 95-15 work, Phase 1a Response work called for under the Consent Decree, as
amended, and any future Regional Response Work,
except as speciﬁcally limited in the [2007] Settlement
Agreement.” See Doty Decl. Ex. 6 at 4-5.
3. The 2010 Action and the Related 2010
Consent Decree
In 2010 in the case of United States v. Alcoa Inc.,
Case No. 2:10-cv-05051-TJH-(PLAx) (“2010 Action”),
Plaintiff United States sued a number of defendants
under CERCLA Section 107 to recover response costs
in connection with the Omega Site. See generally Complaint, Case No. 2:10-cv-05051-TJH-PLA Docket No. 1.
The complaint in the 2010 Action alleged that the
United States incurred at least $17 million in unreimbursed response costs in responding to the releases or
threatened releases of hazardous substances at the former waste treatment and storage facility of Omega
Chemical Corporation. See id. ¶¶ 6, 11.
On October 6, 2010, the EPA, settling work defendants (“2010 Settling Work Defendants”), settling cash

App. 48
defendants (“2010 Settling Cash Defendants”) and
other parties entered into a Consent Decree (“2010
CD”). See generally Doty Decl. Ex. 32. “Site” under the
2010 CD means “the Omega Chemical Corporation Superfund Site, listed on the National Priorities List on
January 19, 1999, 64 Fed. Reg. 2950.” See id. at 10. Paragraph 88 of the 2010 CD provides that:
Claims Against De Minimis and Ability to Pay
Parties. Settling Defendants agree not to assert any claims or causes of action and to
waive all claims or causes of action (including
but not limited to claims or causes of action
under Sections 107(a) and 113 of CERCLA)
that they may have for all matters relating to
the Site against any person that has entered
or in the future enters into a ﬁnal CERCLA
Section 122(g) de minimis settlement, or a ﬁnal settlement based on limited ability to pay,
with EPA with respect to the Site. This waiver
shall not apply with respect to any defense,
claim, or cause of action that a Settling Defendant may have against any person if such
person asserts a claim or cause of action relating to the Site against such Settling Defendant.
See Doty Decl. Ex. 32 ¶ 88. Under the 2010 CD, the
2010 Settling Work Defendants would pay $1.5 million
toward the EPA’s unrecovered costs at the Site, would
pay all future response costs not inconsistent with the
NCP, and would perform various remedial work as to
the Site. See id. ¶¶ 9-16, 49-50. The 2010 Settling Cash

App. 49
Defendants had various payment obligations under
the 2010 CD. See id. ¶¶ 47-48
4. The 2016 Action and the Related 2017
Consent Decree
In the 2016 case of United States v. Abex Aerospace,
Case No. 2:16-cv-02696-GW-(Ex) (“2016 Action”), the
United States and the State of California on behalf of
the Department of Toxic Substances Control (“DTSC”)
sued a number of defendants under Sections 106 and
107 of CERCLA and Section 7003 of the RCRA for injunctive relief and recovery of costs associated with
the release and threatened release of hazardous substances at OU2 or which have come to be located at
OU2. See Case No. 2:16-cv-02696-GW-(Ex) Docket No.
1 at pg. i and ¶ 1. The United States alleged it incurred
at least $20 million in unreimbursed response costs
in responding to hazardous substances or threatened
hazardous substances at or in route to OU2. See id.
¶ 18. Plaintiffs’ response actions allegedly included
remedial investigation, oversight of work by certain
defendants, community relations activities, and preparation feasibility studies and decision documents. See
id.
In 2017, the Court entered a consent decree (“2017
CD”) putting an end to the 2016 Action. See Order to
Enter Consent Decree, Case No. 2:16-cv-02696-GW(Ex) Docket No. 41. The 2017 CD bound the plaintiffs
in that action and certain defendants (“2017 Settling

App. 50
Defendants”).19 See Corrected Consent Decree ¶ 2,
Case No. 2:16-cv-02696-GW-(Ex) Docket No. 19-1. The
2017 CD required the Settling Work Defendants to
make cash payments to the United States and the
DTSC in the amount of $8 million and $70,000 for past
response costs, respectively. See id. ¶ 28. Additionally,
the 2017 Settling Work Defendants agreed to pay all
future response costs incurred by the EPA and DTSC
in overseeing the response actions covered by the 2017
CD, as well as a performance guarantee of $70 million,
which is the estimated cost of the “Work.” See id. ¶¶ 21,
29. The Work was to include groundwater extraction
and treatment in the Northern Extraction Area, Central Extraction Area, and a portion of the Leading Edge
Area of the OU2 plume. See id. ¶¶ O-P. The Work also
was to include investigative work to assist the EPA in
determining the appropriate remainder of the response efforts. See id. In exchange for entering the
2017 CD, all 2017 Settling Defendants received covenants not to sue under CERCLA §§ 106 and 107, as
well as RCRA § 7003 and parallel state provisions, for
the entirety of Plaintiffs’ past OU2 response costs and
the Work required by the 2017 CD. See id. ¶¶ 59-60.
The 2017 Settling Defendants are also entitled to contribution protection under CERCLA § 113(f )(2) for the
“matters addressed” in the 2017 CD. See id. ¶¶ 4, 81.

19

The 2017 Settling Defendants comprised of entities listed
in Appendix D and E of the 2017 CD. See 2017 CD at CM/ECF
pgs. 330-338, Case No. 2:16-cv-02696-GW-(Ex) Docket No. 19-1.

App. 51
III. MSJ Legal Standard
Summary judgment is proper when the pleadings,
the discovery and disclosed materials on ﬁle, including
any afﬁdavits/declarations, show that “there is no genuine issue as to any material fact and that the movant
is entitled to judgment as a matter of law.”20 Fed. R. Civ.
P. 56; see also Miranda v. City of Cornelius, 429 F.3d
858, 860 n.1 (9th Cir. 2005). To satisfy its burden at
summary judgment, a moving party with the burden
of persuasion must establish “beyond controversy
every essential element of its [claim or defense].” S.
Cal. Gas Co. v. City of Santa Ana, 336 F.3d 885, 888
(9th Cir. 2003). By contrast, a moving party without
the burden of persuasion “must either produce evidence negating an essential element of the nonmoving
party’s claim or defense or show that the nonmoving
party does not have enough evidence of an essential
element to carry its ultimate burden of persuasion at
trial.” Nissan Fire & Marine Ins. Co., Ltd. v. Fritz Cos.,
Inc., 210 F.3d 1099, 1102 (9th Cir. 2000). If the party
moving for summary judgment meets its initial burden
of identifying for the court the portions of the materials
on ﬁle that it believes demonstrate the absence of any
genuine issue of material fact, the nonmoving party
20

Under Federal Rule of Civil Procedure 56, the same legal
standard applies to motions for partial summary judgment and to
ordinary motions for summary judgment. See Fed. R. Civ. P.
56(a): see also California v. Campbell, 138 F.3d 772, 780 (9th Cir.
1998); Barnes v. Cnty. of Placer, 654 F.Supp.2d 1066, 1070 (E.D.
Cal. 2009), aff ’d, 386 F.App’x 633 (9th Cir. 2010) (“A motion for
partial summary judgment is resolved under the same standard
as a motion for summary judgment.”).

App. 52
may not rely on the mere allegations in the pleadings
in order to preclude summary judgment, [but instead]
must set forth, by afﬁdavit or as otherwise provided in
Rule 56, speciﬁc facts showing that there is a genuine
issue for trial. T.W. Elec. Serv., Inc., v. Pac. Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir. 1987) (internal citations and quotation marks omitted, emphasis
in original) (citing, among other cases, Celotex Corp. v.
Catrett, 477 U.S. 317 (1986)).
“A non-movant’s bald assertions or a mere scintilla
of evidence in his favor are both insufﬁcient to withstand summary judgment.” FTC v. Stefanchik, 559 F.3d
924, 929 (9th Cir. 2009). In addition, the evidence presented by the parties must be admissible. See Fed. R.
Civ. P. 56(e); see also Pelletier v. Fed. Home Loan Bank
of S.F., 968 F.2d 865, 872 (9th Cir. 1992) (to survive
summary judgment, the non-movant party “ordinarily
must furnish afﬁdavits containing admissible evidence
tending to show the existence of a genuine dispute of
material fact”). Conclusory, speculative testimony in
afﬁdavits and moving papers is insufﬁcient to raise
genuine issues of fact and defeat summary judgment.
See Thornhill Publ’g Co., Inc. v. GTE Corp., 594 F.2d
730, 738 (9th Cir. 1979). With that said, courts do not
make credibility determinations or weigh conﬂicting
evidence at the summary judgment stage, and must
view all evidence and draw all inferences in the light
most favorable to the non-moving party. See T.W. Elec.,
809 F.2d at 630-31 (citing Matsushita Elec. Indus. Co.,
Ltd. v. Zenith Radio Corp., 475 U.S. 574 (1986)); see also

App. 53
Motley v. Parks, 432 F.3d 1072, 1075, n.1 (9th Cir. 2005)
(en banc).
IV. Discussion
Moving Defendants seek summary judgment as to
Plaintiffs’ ﬁrst and third claims for relief,21 arguing
that the three-year statute of limitations in 42 U.S.C.
§ 9613(g)(3)(B), CERCLA § 113(g)(3)(B) bars them. See
MSJ at 18-25. Plaintiffs disagree. See Opp’n at 11-25.
The core of this Motion rests on whether any prior judicially approved settlement or consent decree triggered the statute of limitations, barring the ﬁrst and
third claims for relief in the 5AC.
A. Applicable Law on the Statute of Limitations
The Ninth Circuit has recognized the complexity
of CERCLA, noting that the statute contains a “mazelike structure and bafﬂing language.” California ex rel.
Cal. Dep’t of Toxic Substances Control v. Neville Chem.
Co., 358 F.3d 661, 663 (9th Cir. 2004). Nonetheless,
“[w]hile the statutory language may be bafﬂing and
the structure maze-like, the statute clearly indicates
21

In the 5AC, Plaintiffs style the ﬁrst claim for relief as “Contribution Under CERCLA,” alleged against all Defendants except
for Burke Street LLC. See 5AC ¶¶ 396-407. The third claim for
relief is labeled as “Declaratory Judgment Under Federal Law,”
alleged against all Defendants except Burke Street LLC. See id.
¶¶ 424-426. Because the ﬁrst and third claims for relief are essentially the same, with the third merely adding a declaratory
relief element, the Court will analyze them together.

App. 54
that any contribution claim for particular remedial
costs is subject to a three-year statute of limitations
once liability for a potentially responsible party (‘PRP’)
becomes recognized through a judicially approved settlement.” ASARCO, LLC v. Celanese Chem. Co., 792
F.3d 1203, 1208 (9th Cir. 2015) (citing 42 U.S.C.
§ 9613(g)(3)(B)). Pursuant to CERCLA § 113, there are
two express avenues for contribution:
§ 113(f )(1) (“during or following” speciﬁed
civil actions) and § 113(f )(3)(B) (after an administrative or judicially approved settlement
that resolves liability to the United States or
a State). Section 113(g)(3) then provides two
corresponding 3-year limitations periods for
contribution actions, one beginning at the date
of judgment, § 113(g)(3)(A), and one beginning
at the date of settlement, § 113(g)(3)(B). . . .
[T]o assert a contribution claim under
§ 113(f ), a party must satisfy the conditions of
either § 113(f )(1) or § 113(f )(3)(B).
Cooper Indus., 543 U.S. at 167. CERCLA § 113(g)(3),
the statute of limitations provision at issue here, reads
as follows:
(3)

Contribution

No action for contribution for any response
costs or damages may be commenced more
than 3 years after –
(A) the date of judgment in any action
under this chapter for recovery of such
costs or damages, or

App. 55
(B) the date of an administrative order
under section 9622(g) of this title (relating to de minimis settlements) or 9622(h)
of this title (relating to cost recovery settlements) or entry of a judicially approved
settlement with respect to such costs or
damages.
See CERCLA § 113(g)(3). The Ninth Circuit has elaborated on the statute of limitations component, providing that:
The statute of limitations for a contribution
claim is triggered by the date upon which the
judgment or settlement that underlies the
claim is entered. See id. When the CERCLA
§§ 106 or 107 lawsuit is over and a judgment
is entered, the statute of limitations begins to
run on the cause of action for contribution
that accrued during the pendency of that litigation. See 42 U.S.C. § 9613(g)(3)(A). When a
person resolves its liability to the United
States or a State through an administrative
or judicially approved settlement, a right to
assert a contribution claim against other
PRPs also accrues. Id. § 9613(f )(3)(B). Such a
settlement starts the clock on the three-year
statute of limitations for the contribution
claim that accrues on the basis of that settlement. Id. § 9613(g)(3)(B).
Celanese, 792 F.3d at 1210. Under CERCLA
§ 113(g)(3)(B), private-party judicially approved settlements also trigger the statute of limitations. See id. at
1211.

App. 56
The outstanding question is whether the 2007 Settlement constitutes a judicially approved settlement
“with respect to” response costs or damages sought in
the present action for contribution. There is no doubt
that the 2007 Settlement constitutes a judicially approved settlement within the meaning of CERCLA
§ 113(g)(3). Therefore, the issue before the Court is
merely whether the 2007 Settlement is with respect to
the response costs or damages sought in this lawsuit.
This inevitably requires a comparison of such costs.
B. Which Costs Are Sought in This Lawsuit?
It behooves the Court to begin with establishing
what response costs or damages are sought in the present action for contribution. The Court has two primary sources for determining the costs sought here:
the 5AC and the Costs Timeline that Plaintiffs provided. First, in the 5AC, Plaintiffs seek the following:
(1) ON THE FIRST CLAIM FOR RELIEF,
for contribut[i]on for all costs and damages incurred by Plaintiffs, including pre-judgment
interest thereon as allowed by law, that exceed Plaintiffs’ equitable share of the costs
for which Plaintiffs are liable under the OU-2
Consent Decree;
***
(3) ON THE THIRD CLAIM FOR RELIEF,
for a judicial declaration that Defendants are
liable for their respective equitable shares of

App. 57
all costs and damages incurred by Plaintiffs,
including pre-judgment interest thereon as
allowed by law, that exceed Plaintiffs’ equitable share of the costs for which Plaintiffs are
liable under the OU-2 Consent Decree. . . .
See 5AC at 102-103. Paragraph 9 also bears relevance:
Plaintiffs have each voluntarily incurred signiﬁcant costs to investigate the sources to,
and the remediation of, the OU-2 Facility, collectively spending millions of dollars to address it, and may incur millions of dollars
more in future response costs. EPA has determined that the contaminated groundwater
should be contained, extracted, and treated so
that it can be used in a beneﬁcial manner.
This remedy will require tens of millions of
dollars in capital and operating expenditures
for years to come. Upon information and belief, Defendants are responsible for releases of
hazardous substances to the OU-2 Facility
groundwater and therefore should bear the
costs to clean up the resulting contamination.
See id. ¶ 9.
As the second source that the Court draws upon to
discern what costs are sought here, Plaintiffs submitted the Costs Timeline. In the Costs Timeline, Plaintiffs include a three-page matrix. See generally Costs
Timeline. That matrix, titled in full as “Timeline of
OU2 Activities and OPOG Costs,” bears four columns.
See id. Those columns are titled as follows: (1) Year; (2)
Major EPA OU2 Activities; (3) Major OPOG OU2 Activities; and (4) OPOG OU2 Costs. See id. Each row

App. 58
represents a period of time (starting in 2001 and ending in 2018). Plaintiffs aver that $16,500,000 in OPOG
OU2 costs have been incurred (or that they seek that
much in costs). See id. at CM/ECF pg. 3. Some of the
costs Plaintiffs seek relate to the “data collection on nature and scope of OU2 contamination;” “[d]ata collection on OU2 PRPs;” “work on OU2 RI;” “GNLs for RI;”
“EPA work on OU2 RI;” “work on OU2 and [p]roposed
[r]emedy;” “comments on draft RI;” “[f ]inal OU2 RI/FS
and Proposed Remedy Plan for public comment;” “OU2
ROD;” “SNLs with draft OU2 CD and Statement of
Work;” “Good Faith Offers;” “negotiations with OPOG
on GFO;” “settlement negotiations with OPOG and
McKesson;” “[n]egotiations on CD and SOW continue
based on term sheet;” and “ongoing oversight of OU2
CD SOW.” See generally Costs Timeline.
C. Which Costs Were Covered in the 2007
Settlement?
Next, the Court must establish what costs the
2007 Settlement covers as a point of comparison. The
Court applies California principles of contract interpretation in performing this task.22 From reviewing

22

Pursuant to California law, “the mutual intention of the
parties at the time the contract is formed governs interpretation.”
AIU Ins. Co. v. Super. Ct., 799 P.2d 1253, 1264 (1990) (citing Cal.
Civ. Code § 1636). To discern the parties’ intent, the Court looks
solely to “the written provisions of the contract.” Id. (citing Cal.
Civ. Code § 1639). The Court applies the ordinary meaning of a
contract’s terms. Id.; Cal. Civ. Code § 1644. Regardless of how
broad a contract may look, “it extends only to those things

App. 59
the 2007 Settlement, it provides for a release of “Settled Matters.” See Doty Decl. Ex. 6A § 5.01. On the
other hand, Section 5.02 sets out “Excluded Matters,”
and for a claim or liability arising from the Site to be
excluded from the settlement it must not be for “Regional Response Work.” See id. § 5.02(j). In other
words, Regional Response Work is not considered one
of the Excluded Matters and would thus be settled.
See id. “Regional Response Work” under the settlement
means “work that the Governments require the Parties, or any one of them to perform, or which they perform at the request or demand of the Governments or
any one of them, regarding regional groundwater contamination alleged to be attributed to the Site.” Except
for Excluded Matters and certain ministerial tasks,
and pursuant to terms and conditions in the 2007 Settlement, OPOG and Omega Chemical PRP Group LLC
assumed “each Settling Party’s responsibilities for the
Site, including, but not limited to, all the response costs
associated with the Site.” See id. 3.01(a). The Court
would also construe the 2007 Settlement as covering
OU2. To support this interpretation, Section 2.19 deﬁnes “Site” as “the Omega Chemical Corporation Superfund Site listed on the National Priorities List on
January 19, 1999, 64 Fed. Reg. 2945.” See Doty Decl.
Ex. 6A § 2.19.
Three other documents and/or evidence, among
others, contribute to the Court’s understanding of

concerning which it appears that the parties intended to contract.” Cal. Civ. Code § 1648.

App. 60
what the 2007 Settlement covers.23 First, though the
2004 Cost Estimate Memo is not binding, it provides
insight into what the 2007 Settlement covered because
it had a hand in the Court’s approval of that settlement. Dr. Perina described the groundwater as containing contamination dissolved within it over an area
of at least 2.5 miles long and .75 miles wide (the
plume). See Doty Decl. Ex. 19 at 2, Docket No. 749. The
2004 Cost Estimate Memo assumed extraction and
treatment of contaminated groundwater as the presumptive remedies for the site, characterized as pump
and treat using a complex treatment train to address
chemicals in the plume. See id. at 2-3. This estimate
included wells, water conveyance pipelines, and a
treatment plant as components of the conceptual remediation system. See id. at 3. The pump and treat system would operate for 30 years with soil remediation
taking 3 years, under this conceptual remedy. See id.
at 3. Hexavalent chromium and PCE (tetrachloroethylene) were therein identiﬁed as contaminants detected in the Omega Site, with the memo noting that
other contaminants may be identified in the future.
See id. at 2-3. Dr. Perina estimated that soil remediation “Capital and O&M” costs with a 3.1% discount
rate would add up to $3.9 million and groundwater
pump and treat costs would amount to $97.5 million.
See Doty Decl. Ex. 19 at pg. 5 Table 1. See generally
Doty Decl. Exs. 6A, 19. The Court distinguishes this
23

These documents and/or evidence give the Court context.
The Court’s decision rests with the language in the 2007 Settlement, though these documents and/or evidence reafﬁrm the
Court’s conclusion.

App. 61
situation from that in Celanese where there was a
concrete Remedial Action Plan incorporated into the
settlement, but the 2004 Cost Estimate Memo nonetheless has some bearing on what the 2007 Settlement
covered. See Celanese, 792 F.3d at 1212 (noting that the
settlement included an agreement to “undertake site
remediation to investigate, monitor, and abate actual
or threatened contamination . . . caused by or related
to the conditions at the site addressed by the Remedial
Action Plan.”). The 2004 Cost Estimate Memo also supports an interpretation that the 2007 Settlement covered OU-2, with a mention that the estimated cost for
groundwater included multiple sites downgradient
from the Omega processing plant and chemicals not
connected to the Omega plant. See Doty Decl. Ex. 19 at
2. Second, Albert Cohen (“Mr. Cohen”), an attorney for
certain Plaintiffs’ counterparties in the 2007 Settlement, testiﬁed in his deposition that no representatives of OPOG communicated to him that the “60-80
million dollars’ worth of costs EPA’s talking about as
of 2016” are different than what was “settled back in
2006.” See Doty Decl. Ex. 27 at exhibit stamped pgs.
5-7. Third, the 2004 Complaint leading to the 2007 Settlement sought recovery of “costs expended and to be
expended by . . . Plaintiff OPOG and its members in
response to the releases and/or threatened releases of
hazardous substances from the Omega Site.” See Doty
Decl. Ex. 18 at 28-29 (emphasis added). There was no
limitation to OU-1 or exclusion of OU-2. See id.

App. 62
D. Were the Costs Sought in the Present
Action with Respect to Those Covered
in the 2007 Settlement?
With the Court identifying above the costs sought
in the present action and the costs covered in the 2007
Settlement, the Court can now determine whether the
speciﬁc response costs sought in the present action are
“with respect to” such costs covered in the 2007 Settlement. See CERCLA § 113(g)(3). That is the crux of the
CERCLA § 113(g)(3) inquiry currently before the
Court.
This situation is somewhat similar to that in Celanese, and so the Court will address that case here before executing a cost comparison. Celanese involved a
silver and lead smelter in Contract Costa County. See
ASARCO LLC v. Shore Terminals LLC, No. C 11-01384
WHA, 2012 WL 2050253, at *1 (N.D. Cal. June 6, 2012),
aff ’d sub nom., ASARCO, LLC v. Celanese Chem. Co.,
792 F.3d 1203 (9th Cir. 2015).24 As a result of lead and
reﬁning operations, a waste product of smelting deposited in ASARCO’s land as well as tidelands leased by
ASARCO from the California State Lands Commission. See id. A company named Wickland Oil Company
purchased ASARCO’s portion of the site. See id. Wickland Oil Company subsequently commenced litigation
against ASARCO and the California State Lands
24

The Court uses the case name “Celanese” to refer to the
entire litigation, both at the district court level and in the subsequent appeal to the Ninth Circuit. Any citation to “2012 WL
2050253” refers to the district court decision whereas the citation
to “792 F.3d 1203” refers to the Circuit decision.

App. 63
Commission. See id. at *2. In 1989, the parties entered
into a judicially approved settlement where the parties
undertook two broad categories of remediation costs.
See id. One category included four “Interim Remedial
Measures,” among other things, with each party assuming one third of the cost responsibility. See id. at
*2. The other category included “other remediation
costs” such as future costs for remediation measures
necessary and appropriate and costs associated with
reimbursement of a government agency for costs incurred in connection with site remediation. See id.
ASARCO ﬁled the action in March 2011 against certain defendants not party to the 1989 settlement, seeking contribution under Section 113(f ) for costs
ASARCO incurred. See id. at *3. Ultimately, in Celanese, the district court held that the 1989 settlement’s
terms covered the costs in the contribution action, barring recovery beyond the three-year statute of limitations:
While it may not have been known at the time
the 1989 Wickland Settlement was entered
into exactly how much the entire remediation
efforts would cost, the Settlement’s provisions
demonstrate that the settling parties agreed
to share responsibility for future remediation
costs – such as those associated with acid-impacted soils, leaching of metals from the slag,
and groundwater contamination. ASARCO’s
argument that the costs it seeks from defendant in the present dispute are not covered
by the 1989 Wickland Agreement is not

App. 64
supported by the record, and defendant’s motion must therefore be GRANTED.
See id. at *9.
On appeal, the Ninth Circuit afﬁrmed the district
court’s decision, holding that the 1989 settlement triggered the statute of limitations. See Celanese, 792 F.3d
at 1215. Reviewing the settlement de novo, the Ninth
Circuit noted that the settlement included an agreement for the parties to “undertake site remediation to
investigate, monitor, and abate actual or threatened
contamination . . . caused by or related to the conditions at the site addressed by the Remedial Action
Plan.” See id. at 1212. This Remedial Action Plan was
based on a report of an environmental consultant,
eventually incorporated into the 1989 settlement. See
id. The court held that “[t]he fact that the full costs
were unknown at the time does not mean that the
Wickland Agreement was less than comprehensive.”
See id. at 1213.
Earlier, this Court tentatively concluded that the
response costs and damages sought herein were not
“with respect to” the costs covered in the 2007 Settlement. See generally MSJ Tentative II. But, the Court
has changed its perspective in light of reexamining the
parties’ arguments, CERCLA, the case law, and the relevant evidence. The 2007 Settlement cast a wide net
that includes the costs sought in the 5AC and that are
more speciﬁcally delineated in the Costs Timeline.
That settlement is “comprehensive” like the one in
Celanese. As discussed above, the 2007 Settlement

App. 65
covers “Regional Response Work,” which means “work
that the Governments require the Parties, or any one
of them to perform, or which they perform at the request or demand of the Governments or any one of
them, regarding regional groundwater contamination
alleged to be attributed to the Site.” See id. § 2.16. Except for Excluded Matters and certain ministerial
tasks, and pursuant to terms and conditions in the
2007 Settlement, OPOG and Omega Chemical PRP
Group LLC assumed “each Settling Party’s responsibilities for the Site, including, but not limited to, all the
response costs associated with the Site.” See id. 3.01(a).
The Costs Timeline and 5AC fall within those deﬁnitions, and, like in Celanese, the Costs Timeline includes
a mixture of costs known to the parties when they executed the 2007 Settlement and future demands made
by regulators. Though the 2007 Settlement speaks for
itself and is sufﬁcient, the testimony of Cohen and the
2004 Cost Estimate Memo solidify and reafﬁrm that is
the case from a practical perspective. It is also clear to
the Court that Plaintiffs have not raised any evidence
to create a triable issue of fact as to whether the 2007
Settlement covered OU-2. Discussed above, Section
2.19 of the 2007 Settlement deﬁnes “Site” as “the
Omega Chemical Corporation Superfund Site listed on
the National Priorities List on January 19, 1999, 64
Fed. Reg. 2945.” See Doty Decl. Ex. 6A § 2.19. Also in
support of this reading, the 2004 Complaint leading to
the 2007 Settlement sought recovery of “costs expended and to be expended by . . . Plaintiff OPOG and
its members in response to the releases and/or threatened releases of hazardous substances from the Omega

App. 66
Site.” See Doty Decl. Ex. 18 at 28-29 (emphasis added).
The 2004 Complaint, and the 2007 Settlement that followed, did not limit themselves to costs associated with
OU-1 only, but rather they covered the entire Omega
Superfund Site, which would inherently include OU-2.
In addition, the 2004 Cost Estimate Memo mentions
that the estimated cost for groundwater included multiple sites downgradient from the Omega processing
plant and chemicals not connected to the Omega plant.
See Doty Decl. Ex. 19 at 20. The Cohen testimony discussed above also implies that the 2007 Settlement
covered OU-2. See Doty Decl. Ex. 27 at exhibit stamped
pgs. 5-7.
After reviewing Plaintiffs’ various arguments, the
Court rejects their (at least) three attempts to read
additional requirements into CERCLA § 113(g)(3)(B)
that are not supported by applicable statutory interpretation. First, the Court is not convinced by Plaintiffs’ argument that the de minimis status of Plaintiffs’
generator counter-parties in the 2007 Settlement is
dispositive. See Pls.’ Supp. at 11-14; see also Opp’n at
22-25. Instead, the Court is inclined to agree with Moving Defendants that “[r]ather than focus on who settled the cost-recovery action, in short, the statute asks
us to focus on what was settled.” See RSR Corp. v.
Commercial Metals Co., 496 F.3d 552, 557 (6th Cir.
2007) (cited in a Celanese, 792 F.3d at 1214). Congress
could have included such a requirement in CERCLA
§ 113(g)(3)(B), but it did not and the Court is reluctant
to read in such a requirement even after considering

App. 67
Plaintiffs’ policy arguments to do so.25 Plaintiff has not
pointed to legislative history that would alter the

25

The Court applies the following procedure in interpreting
CERCLA’s statute of limitations provisions, as worded in Celanese:
“Statutes of limitations are intended to provide
notice to defendants of a claim before the underlying
evidence becomes stale.” In re Hanford Nuclear Reservation Litig., 534 F.3d 986, 1009 (9th Cir. 2008). A primary canon of statutory interpretation is that the plain
language of a statute should be enforced according to
its terms, in light of its context. Robinson v. Shell Oil
Co., 519 U.S. 337, 340, 117 S.Ct. 843, 136 L.Ed.2d 808
(1997); Wilshire Westwood Assocs. v. Atl. Richﬁeld
Corp., 881 F.2d 801, 803 (9th Cir.1989).
When interpreting a statute, our task is to construe what Congress has enacted. We look ﬁrst to the
plain language of the statute, construing the provisions
of the entire law, including its object and policy, to ascertain the intent of Congress. We will resort to legislative history, even where the plain language is
unambiguous, where the legislative history clearly indicates that Congress meant something other than
what it said.
Carson Harbor Vill., 270 F.3d at 877 (internal quotation marks and citations omitted). “Thus, we examine
the statute as a whole, including its purpose and various provisions.” Id. at 880. We construe the statute in
context to avoid superﬂuities. Cooper Indus., 543 U.S.
at 166, 125 S.Ct. 577 (citing Hibbs v. Winn, 542 U.S.
88, 101, 124 S.Ct. 2276, 159 L.Ed.2d 172 (2004)). If possible, we “construe a statute to give every word some
operative effect.” Id. at 167, 125 S.Ct. 577 (citing
United States v. Nordic Vill., Inc., 503 U.S. 30, 35–36,
112 S.Ct. 1011, 117 L.Ed.2d 181 (1992)). “Clearly, neither a logician nor a grammarian will ﬁnd comfort in
the world of CERCLA. It is not our task, however, to

App. 68
Court’s plain reading and policy considerations do not
tip the scale for the Court. See generally Opp’n.
Second, the Court is not convinced that the supposed “contingent” nature of an obligation in the 2007
Settlement would somehow change the fact that the
2007 Settlement is “with respect to” costs sought in the
present action. CERCLA § 113(g)(3)(B) bears no hint of
such a requirement.26 Plaintiffs cite to no canon of statutory construction that persuades the Court to be the
ﬁrst in this Circuit to carve out such a signiﬁcant exception. Though there may be a few legitimate policy
concerns, Congress could choose to act if its agrees with
Plaintiffs; a plain reading of the statute and the absence of applicable legislative history lead the Court to
this conclusion. The Ninth Circuit in Celanese seemed
to reject ASARCO’s somewhat similar argument “that
the phrase ‘such costs or damages’ in the statute of limitations means that ASARCO’s claim for contribution
only came about when ‘such costs or damages’ became
ﬁxed.” See Celanese 792 F.3d at 1214. Seemingly disagreeing with that argument, the Ninth Circuit responded that “ASARCO’s new contribution claim via
the 2008 Bankruptcy Settlement is for exactly the
same liability ASARCO assumed in the 1989 Wickland
Agreement, and is therefore time barred.” See id.

clean up the bafﬂing language Congress gave us. . . .”
Carson Harbor Vill., 270 F.3d at 883.
Celanese, 792 F.3d at 1210-11.
26
The text of CERCLA § 113(g)(3) is provided on page 7, supra.

App. 69
Third, the Court is also not convinced that because
certain costs were unknown at the time of the 2007 Settlement or because the exact procedure for remediating
the Site was not established at the time of the settlement, that somehow the 2007 Settlement does not cover
the costs sought herein. Indeed, this Court will respond
to those concerns with the words of the Ninth Circuit
responding to similar concerns in Celanese: “[t]he terms
of the [2007 Settlement] clearly deﬁne who will pay for
the work and the nature of the work to remediate the
[ ] Site, while contemplating that additional tasks may
be added to accomplish the remediation’s goals.”27 See
27

Here, the situation is also not similar to that in American
Cyanamid v. Capuano, 381 F.3d 6 (1st Cir. 2004). There, the
statute of limitations did not bar a contribution claim because an
earlier judgment covered a different set of costs altogether; the
later time-barred lawsuit addressed groundwater contamination
whereas the earlier judgment addressed soil cleanup. See id. at
10-14. At the time of the earlier judgment, regulators had not
even assessed whether there was groundwater contamination at
the site. See id. at 14. That is not the case here, where groundwater contamination is at issue in the present action came into focus
as early as 1995. See Doty Decl. Ex. 3 at 2:24-3:5. Indeed, groundwater contamination is reference both in the 2007 Settlement and
in the present action’s 5AC. See, e.g., 2007 Settlement § 2.16; see
also 5AC ¶ 9.
The Court would similarly ﬁnd Whittaker Corp. v. United
States, 825 F.3d 1002 (9th Cir. 2016) distinguishable from this
case. In that case, the plaintiff “explicitly alleged” that the costs
sought were “separate from” costs covered by the earlier judicially
approved settlement at issue. See id. at 1005. Unlike here, at issue there was a motion to dismiss, rather than a motion for summary judgment, so that explicit allegation was considered true
and dispositive. See id. In addition, Whittaker did not direclty
take on a statute of limitations argument but instead the Ninth
Circuit merely determined that the plaintiff was not required to

App. 70
Celanese 792 F.3d at 1213.28 Upon reviewing the parties’ additional brieﬁng, the Court also concludes that
bring a suit for contribution rather than cost recovery because he
sought expenses separate from those established or pending. See
id. at 1010-13. Those questions are “closely related” but they are
not necessarily identical. See id. at 1010.
28
For somewhat similar reasons to the Court’s conclusions
above, the Court would ﬁnd that a contribution claim arose as
early as November 29, 2000 when the United States sued Plaintiff
under CERCLA § 107 for cost recovery of response costs and under CERCLA § 106 to compel the clean up of the Omega Site in
its entirety. See generally 2000 Action Complaint ¶¶ 12-17,
Docket No. 785. In addition, the 2004 Complaint against the de
minimis generators alleged a contribution claim as the legal basis
for the action, seeking contribution for Site costs, indicating that
even Plaintiffs must have believed this at one point in time. See
generally 2004 Complaint, Docket No. 749. As per CERCLA
§ 113(f )(1), “a person may seek contribution from any other person who is liable or potentially liable under section 9607(a) [CERCLA § 107(a)] of this title, during or following any civil action
under section 9606 [CERCLA § 106] of this title or under section
9607(a) [CERCLA § 107(a)] of this title.” That statute was satisﬁed here.
Separate but related, at the August 6, 2018 hearing, Moving
Defendants requested that the Court give a “clear ruling” on their
judicial estoppel argument. See Aug. 6, 2018 Hr. Tr. at 70:23-25.
In one sentence and one accompanying footnote in the MSJ, Moving Defendants mention judicial estoppel. There, the extent of
their argument is as follows:
Plaintiffs’ knowledge of the regional plume issue and
their efforts to obtain contribution in connection with
their liability for those costs present a fact pattern different from the Capuano decision and any claim now
that the 2001 settlement did not trigger limitations for
the entire Omega Superfund Site would fail by principles of judicial estoppel.
[FN 12 from the MSJ attached to the end of the above
excerpt:] Samson v. NAMA Holdings, LLC, 637 F.3d

App. 71
915, 935 (9th Cir. 2011) provides the Ninth Circuit’s
three-part framework for judicial estoppel, which Moving Defendants will address if need be in their Reply.
See MSJ at 24. In the MSJ Reply, Moving Defendants brieﬂy argue that “judicial estoppel prevents Plaintiffs from claiming that
they lacked a CERCLA contribution claim inclusive of OU-2 until
recently.” Reply at 13-14. Moving Defendants seem to somewhat
pivot to arguing that Plaintiffs’ actions in the 2004 Action estop
Plaintiffs from preferring the aforementioned argument. See id.
The Ninth Circuit in Samson noted four factors that courts consider in deciding whether to apply the doctrine of judicial estoppel:
Factors relevant in deciding whether to apply the doctrine include: (1) whether the party’s later position is
“clearly inconsistent” with its earlier position; (2)
whether the party has successfully advanced the earlier position, such that judicial acceptance of an inconsistent position in the later proceeding would create a
perception that either the ﬁrst or the second court had
been misled; and (3) “whether the party seeking to assert an inconsistent position would derive an unfair advantage or impose an unfair detriment on the opposing
party if not estopped.”
In addition to these factors, the Ninth Circuit examines
[4] “whether the party to be estopped acted inadvertently or with any degree of intent.”
See Samson, 637 F.3d at 935 (citations omitted).
As a separate and independent basis for the Court’s decision,
it is inclined to agree with Moving Defendants’ judicial estoppel
position as argued in the Reply. See Reply at 13-14. Though there
is no evidence of any intent on Plaintiffs’ part, Plaintiffs are
“clearly inconsistent” with their earlier position in the 2004 Action seeking relief costs inclusive of the entire Site; allowing
Plaintiffs to essentially argue that they never had a contribution
claim that they litigated before Judge Hatter is an unfair advantage based on an inconsistent position. Moreover, Plaintiffs do
not persuade the Court otherwise and they never mention the
phrase “judicial estoppel” in the Opposition or any supplemental
brieﬁng. See generally Opp’n; Pls.’ Supp.; Pls.’ Supp. II.

App. 72
the statute of limitations provision in CERCLA
§ 113(g)(3) does not require a party to accept liability
or responsibility to trigger the statute of limitations.
Plaintiffs point to no legislative history that would
indicate otherwise, and the fact that a different provision, CERCLA § 113(f )(3)(B), narrows itself to situations where a person “has resolved its liability to
the United States or a State for some or all of a response action” indicates that Congress purposefully
left out such a requirement in CERCLA § 113(g)(3).
The Court would therefore not read this additional requirement into CERCLA § 113(g)(3).
In sum, the Court would conclude that the 2007
Settlement, which was entered more than three years
prior to the ﬁling of the present action, bars the ﬁrst
and third causes of action in the 5AC. The response
costs sought here are “with respect to” those covered in
the 2007 Settlement.29 Plaintiffs provide no material

29

In a brief 1.5 page section of the MSJ, Moving Defendants
seem to argue that even if the 2007 Settlement did not trigger the
statute of limitations to preclude this action, the 2001 CD and the
2010 CD independently triggered the statute of limitations. See
MSJ at 23-25. This section, in its brevity and with its lack of supporting evidence and analysis, does not sufﬁciently convince the
Court that the 2001 CD or the 2010 CD trigger the statute of limitations to run as to this action. Moving Defendants backtracked
from invoking the 2001 CD and the 2010 CD in the Reply, asserting that these settlements “[b]oth were clearly identiﬁed [in the
MSJ] as background support. . . .” See Reply at 18. They even include a heading that concedes that “[t]he 2001 and 2010 Consent
Decrees Were and Remain Tertiary.” See id. With the Court determining that the 2007 Settlement bars the ﬁrst and third
causes of action, the Court need not entertain the possibility that

App. 73
evidence to put that conclusion in dispute and thus the
statute of limitations applies.
V.

Conclusion

For the reasons stated above, the Court would
GRANT the Moving Defendants’ MSJ and DISMISS
WITH PREJUDICE the ﬁrst and third causes of action in the 5AC.30

those consent decrees (or others) also could have triggered the
statute of limitations.
30
Moving Defendants ﬁled three requests for evidentiary
rulings on speciﬁed objections as to three separate declarations.
See Docket Nos. 781, 782, 783. Of those objections, only two objections relate to evidence the Court has relied on in this ruling.
Those two objections in Docket No. 783, made against Paragraphs
4 and 6 of the Lucero Declaration, are overruled. Plaintiffs ﬁled
one objection, aiming at an exhibit attached to Moving Defendants’ Reply. See Docket No. 786. The Court did not rely on this
exhibit for its ruling and it therefore need not rule on its admissibility. At both of the hearings, neither party made a further request for speciﬁc rulings on evidentiary objections.

App. 74
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
ARCONIC INC., et al.,
Plaintiffs,
v.
APC INVESTMENT CO.,
et al.,
Defendants.

Case No.
CV 14-6456 GW(Ex)
FINAL JUDGMENT
PURSUANT TO
FEDERAL RULE
OF CIVIL
PROCEDURE 54(b)

AND RELATED CROSS
ACTIONS, COUNTERCLAIMS
AND THIRD-PARTY
COMPLAINTS
For the reasons stated in the Court’s January 15,
2019, Order on Summary Judgment [ Dkt. No. 809]
and February 4, 2019, Order Directing Entry of Final
Judgment Pursuant to Federal Rule of Civil Procedure
54(b) (the “Order Directing Entry of Final Judgment”),
Plaintiffs’ First and Third Causes of Action for contribution and declaratory relief under the Comprehensive Environmental Response, Compensation, and
Liability Act are hereby DISMISSED WITH PREJUDICE and ﬁnal judgment is hereby entered for the
Moving Defendants and Non-Moving Defendants, as
those terms are deﬁned under the Order Directing Entry of Final Judgment, as to those claims.

App. 75
IT IS SO ORDERED.
DATED: February 4, 2019 /s/ George H. Wu
GEORGE H. WU,
U.S. District Judge
Respectfully Submitted by:
LATHROP GAGE LLP
Nancy Sher Cohen, Bar No. 81706
ncohen@lathropgage.com
Ronald A. Valenzuela, Bar No. 210025
rvalenzuela@lathropgage.com
1888 Century Park East, Suite 1000
Los Angeles, California 90067-1623
Telephone: 310.789.4600
Facsimile: 310.789.4601
Attorneys for Plaintiffs
Arconic Inc., et al.

App. 76
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ARCONIC INC., FKA
Alcoa, Inc.; et al.,
Plaintiffs-Appellants,
v.
APC INVESTMENT CO.;
et al.,
Defendants-Appellees.

No. 19-55181
D.C. No.
2:14-cv-06456-GW-E
Central District of
California, Los Angeles
ORDER
(Filed Oct. 21, 2020)

Before: CALLAHAN and NGUYEN, Circuit Judges,
and CHRISTENSEN,* District Judge.
The panel has voted to deny the appellees’ petition
for panel rehearing. Judges Callahan and Nguyen
have also voted to deny the petition for rehearing en
banc, and Judge Christensen so recommends. The full
court has been advised of the petition, and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35. Accordingly, the petitions for
rehearing and rehearing en banc are DENIED.

* The Honorable Dana L. Christensen, United States District Judge for the District of Montana, sitting by designation.

App. 77
APPENDIX E
CERCLA § 107
(42 U.S.C. § 9607)
Liability
(a) Covered persons; scope; recoverable costs
and damages; interest rate; “comparable maturity” date
Notwithstanding any other provision or rule of law,
and subject only to the defenses set forth in subsection
(b) of this section—
....
(4) any person who accepts or accepted any hazardous substances for transport to disposal or treatment
facilities, incineration vessels or sites selected by such
person, from which there is a release, or a threatened
release which causes the incurrence of response costs,
of a hazardous substance, shall be liable for—
(A) all costs of removal or remedial action incurred
by the United States Government or a State or an Indian tribe not inconsistent with the national contingency plan;
(B) any other necessary costs of response incurred by
any other person consistent with the national contingency plan;
(C) damages for injury to, destruction of, or loss of
natural resources, including the reasonable costs of assessing such injury, destruction, or loss resulting from
such a release; and

App. 78
(D) the costs of any health assessment or health effects study carried out under section 9604(i) of this title.
The amounts recoverable in an action under this section shall include interest on the amounts recoverable
under subparagraphs (A) through (D). Such interest
shall accrue from the later of (i) the date payment of a
speciﬁed amount is demanded in writing, or (ii) the
date of the expenditure concerned. The rate of interest
on the outstanding unpaid balance of the amounts recoverable under this section shall be the same rate as
is speciﬁed for interest on investments of the Hazardous Substance Superfund established under subchapter A of chapter 98 of title 26. For purposes of applying
such amendments to interest under this subsection,
the term “comparable maturity” shall be determined
with reference to the date on which interest accruing
under this subsection commences.

CERCLA § 113
(42 U.S.C. § 9613)
Civil Proceedings
....
(f )

Contribution
(1)

Contribution

Any person may seek contribution from any other
person who is liable or potentially liable under section 9607(a) of this title, during or following any

App. 79
civil action under section 9606 of this title or under section 9607(a) of this title. Such claims shall
be brought in accordance with this section and
the Federal Rules of Civil Procedure, and shall
be governed by Federal law. In resolving contribution claims, the court may allocate response costs
among liable parties using such equitable factors
as the court determines are appropriate. Nothing
in this subsection shall diminish the right of any
person to bring an action for contribution in the
absence of a civil action under section 9606 of this
title or section 9607 of this title.
(2)

Settlement

A person who has resolved its liability to the
United States or a State in an administrative or
judicially approved settlement shall not be liable
for claims for contribution regarding matters addressed in the settlement. Such settlement does
not discharge any of the other potentially liable
persons unless its terms so provide, but it reduces
the potential liability of the others by the amount
of the settlement.
(3)

Persons not party to settlement

(A) If the United States or a State has obtained
less than complete relief from a person who has
resolved its liability to the United States or the
State in an administrative or judicially approved
settlement, the United States or the State may
bring an action against any person who has not so
resolved its liability.
(B) A person who has resolved its liability to
the United States or a State for some or all of a

App. 80
response action or for some or all of the costs of
such action in an administrative or judicially approved settlement may seek contribution from any
person who is not party to a settlement referred to
in paragraph (2).
(C) In any action under this paragraph, the
rights of any person who has resolved its liability
to the United States or a State shall be subordinate to the rights of the United States or the State.
Any contribution action brought under this paragraph shall be governed by Federal law.
(g)

Period in which action may be brought
(1)

Actions for natural resource damages

Except as provided in paragraphs (3) and (4), no
action may be commenced for damages (as deﬁned
in section 9601(6) of this title) under this chapter,
unless that action is commenced within 3 years after the later of the following:
(A) The date of the discovery of the loss and its
connection with the release in question.
(B) The date on which regulations are promulgated under section 9651(c) of this title.
With respect to any facility listed on the National
Priorities List (NPL), any Federal facility identiﬁed under section 9620 of this title (relating to
Federal facilities), or any vessel or facility at which
a remedial action under this chapter is otherwise
scheduled, an action for damages under this chapter must be commenced within 3 years after the
completion of the remedial action (excluding operation and maintenance activities) in lieu of the

App. 81
dates referred to in subparagraph (A) or (B). In no
event may an action for damages under this
chapter with respect to such a vessel or facility
be commenced (i) prior to 60 days after the Federal
or State natural resource trustee provides to the
President and the potentially responsible party a
notice of intent to ﬁle suit, or (ii) before selection
of the remedial action if the President is diligently
proceeding with a remedial investigation and feasibility study under section 9604(b) of this title or
section 9620 of this title (relating to Federal facilities). The limitation in the preceding sentence on
commencing an action before giving notice or before selection of the remedial action does not apply
to actions ﬁled on or before October 17, 1986.
(2)

Actions for recovery of costs

An initial action for recovery of the costs referred
to in section 9607 of this title must be commenced—
(A) for a removal action, within 3 years after
completion of the removal action, except that such
cost recovery action must be brought within 6
years after a determination to grant a waiver under section 9604(c)(1)(C) of this title for continued
response action; and
(B) for a remedial action, within 6 years after initiation of physical on-site construction of the remedial action, except that, if the remedial action
is initiated within 3 years after the completion of
the removal action, costs incurred in the removal
action may be recovered in the cost recovery action
brought under this subparagraph.

App. 82
In any such action described in this subsection, the
court shall enter a declaratory judgment on liability for response costs or damages that will be binding on any subsequent action or actions to recover
further response costs or damages. A subsequent
action or actions under section 9607 of this title for
further response costs at the vessel or facility may
be maintained at any time during the response action, but must be commenced no later than 3 years
after the date of completion of all response action.
Except as otherwise provided in this paragraph,
an action may be commenced under section 9607
of this title for recovery of costs at any time after
such costs have been incurred.
(3)

Contribution

No action for contribution for any response costs
or damages may be commenced more than 3 years
after—
(A) the date of judgment in any action under this
chapter for recovery of such costs or damages, or
(B) the date of an administrative order under
section 9622(g) of this title (relating to de minimis
settlements) or 9622(h) of this title (relating to
cost recovery settlements) or entry of a judicially
approved settlement with respect to such costs or
damages.
(4)

Subrogation

No action based on rights subrogated pursuant to
this section by reason of payment of a claim may
be commenced under this subchapter more than 3
years after the date of payment of such claim.

App. 83
(5) Actions to recover indemniﬁcation payments
Notwithstanding any other provision of this subsection, where a payment pursuant to an indemnification agreement with a response action
contractor is made under section 9619 of this title,
an action under section 9607 of this title for recovery of such indemniﬁcation payment from a potentially responsible party may be brought at any
time before the expiration of 3 years from the date
on which such payment is made.
(6)

Minors and incompetents

The time limitations contained herein shall not
begin to run—
(A) against a minor until the earlier of the date
when such minor reaches 18 years of age or the
date on which a legal representative is duly appointed for such minor, or
(B) against an incompetent person until the earlier of the date on which such incompetent’s incompetency ends or the date on which a legal
representative is duly appointed for such incompetent.

